<html>
<title> - NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 111-318]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-318
 
                       NATIONAL PARKS LEGISLATION

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                  S. 760                                S. 2726

                  S. 1838                               S. 2738

                  S. 2097                               H.R. 1849

                  S. 2722                               H.R. 3689



                               __________


                            DECEMBER 3, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
55-478                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alexander, Brian, President & CEO, National World War I Museum at 
  Liberty Memorial, Kansas City, MO..............................    25
Barboza, Maurice A., Founder & CEO, Liberty Fund DC..............    30
Burr, Hon. Richard, U.S. Senator From North Carolina.............     4
Cleaver, Hon. Emanuel, II, U.S. Representative From Missouri.....     8
Foundation, Edwin L., Director, World War I Memorial Foundation..    42
Madden, David, Chair, Louisiana Abraham Lincoln Bicentennial 
  Commission, Black Mountain, NC.................................    37
Robinson, Harry G., III, Vietnam Veterans Memorial Fund..........    33
Rockefeller, Hon. John D., IV, U.S. Senator From West Virginia...     5
Stevenson, Katherine H., Assistant Director, Business Services, 
  National Park Service, Department of the Interior, Accompanied 
  by Peter May, Associate Regional Director for Lands, Resources, 
  and Planning, National Capital Region..........................    15
Thune, Hon. John, U.S. Senator From South Dakota.................     6
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Webb, Hon. Jim, U.S. Senator From Virginia.......................     7

                                APPENDIX

Additional material submitted for the record.....................    53


                       NATIONAL PARKS LEGISLATION

                              ----------                              


                       THURSDAY, DECEMBER 3, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    This afternoon we have a very full agenda of eight bills, 
including several national memorial proposals. While some of 
the bills appear to be noncontroversial, a few of the bills do 
raise issues that will require greater review.
    Three of the bills on the agenda concern a proposed World 
War I National Memorial. S. 760, sponsored by Senators 
McCaskill and Bond, would designate the Liberty Memorial at the 
National World War I Museum in Kansas City, Missouri, as the 
National World War I Memorial, as does the House companion 
measure, H.R. 1849, sponsored by Congressman Emanuel Cleaver, 
who we will hear from in just a few minutes.
    We will also be receiving testimony on a different World 
War I memorial proposal, S. 2097, sponsored by Senators Thune, 
Webb, Rockefeller, and several others, which would rededicate 
the District of Columbia War Memorial as a National and 
District of Columbia World War I Memorial.
    The other bills on the subcommittee's agenda include S. 
1838, Senator Landrieu's bill to establish a commission to 
commemorate the sesquicentennial--the 150th anniversary of the 
Civil War; S. 2722, Senator Barrasso's bill to authorize a 
study of the Heart Mountain Relocation Center in Wyoming, to 
assess the suitability and feasibility of designating the site 
as a unit of the National Park System; S. 2726, Senator 
Johnson's bill to modify the boundary of the Minuteman Missile 
National Historic Site in South Dakota; S. 2738, sponsored by 
Senators Dodd and Grassley, which would authorize establishment 
of a memorial in the District of Columbia to honor free persons 
and slaves who fought for independence, liberty, and justice 
for all during the American Revolution; and H.R. 3689, 
sponsored by Congressman Rahall, which would extend the 
legislative authority for construction of the Vietnam Veteran's 
Memorial visitors center.
    We do have a lengthy witness list this afternoon. Several 
of our colleagues have asked to testify, we need to hear the 
administration's views on all bills, and we have several 
witnesses testifying on the various proposals.
    I'm also informed that there are likely to be votes on the 
Senate floor this afternoon, beginning around 2:45. So that we 
have enough time to hear from everyone, I would ask everyone to 
please summarize your statements as much as possible. We will 
include your written statements and any other materials in the 
official hearing record.
    At this point, I'd like to recognize the ranking member of 
the subcommittee, Senator Burr, for any comments he may have.
    [The prepared statements of Senators Landrieu, Dodd, 
Barrasso, and Enzi follow:]
    Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator From 
                         Louisiana, on S. 1838
    The American Civil War, fought from 1861-1865, tore the United 
States apart, and engaged the U.S. in the most deadly struggle that has 
ever befallen our great Nation. As we approach the War's 150th 
anniversary, we must remember the contributions of our forefathers, 
those many Americans who gave their lives to make America what it is 
now. That is why I introduced the Civil War Sesquicentennial Commission 
Act of 2009, along with my colleague, Senator Webb, to commemorate this 
turning point in American history.
    We all studied the Civil War in school. We know that the opening 
shots of the Civil War were fired at Fort Sumter, South Carolina in 
April of 1861 and that Robert E. Lee and Ulysses S. Grant agreed to 
peace at Appomattox Court House, Virginia on April 9, 1865. We 
recognize those most horrific battles-Antietam, Gettysburg, 
Fredericksburg, and the 10,000 other sites from New Mexico to Vermont 
that were host to fighting. We celebrate the strength and bravery of 
individuals such as Frederick Douglas and Harriett Tubman who risked 
everything to combat the deplorable institution of slavery. And every 
February, we observe President Lincoln's birthday, a day to recollect 
his legacy. The Emancipation Proclamation and Gettysburg address are 
two of the most memorable documents in American history, and it is 
thanks to President Lincoln that slavery was eradicated.
    These are the most memorable aspects of the Civil War, but the 
influence and impact reaches so much further. The American Civil War 
has reverberated throughout our history. Every aspect of American life 
was affected whether economic, cultural, political, or otherwise. The 
most profound consequence of the Civil War was to end the legal edifice 
that justified the subjugation of people based on accidental 
characteristics such as race.
    We must remember what our forefathers sacrificed for us. More than 
3 million men fought in the Civil War. They left their homes and their 
loved ones to fight for their beliefs, their families, their Nation. 
620,000 of those soldiers gave their lives.
    We must remember the untold number of civilians who lost their 
lives or welfare because the battles were taking place all around them. 
No State, city, community, or family was untouched by devastation or 
loss.
    We must remember the legacies of the Civil War. The United States 
emerged completely altered after the four years of struggle, and as a 
testament of American resilience, grew stronger than it was before. The 
cultural and political ramifications still shape the American landscape 
today. It was in the era of Reconstruction that Congress adopted the 
13th, 14th, and 15th amendments to the Constitution, acknowledging 
black Americans as free and equal citizens of the United States.
    The Civil War Sesquicentennial Commission Act of 2009 is about 
preserving the memory. It will establish a Commission to ensure a 
suitable national observance. Consisting of 25 members from government, 
business and academia, this commission will develop and carry out 
programs to commemorate the 150th anniversary of the Civil War. It will 
work together with State and local governments, as well as various 
organizations, to assist with these activities and ensure that 
remembrance occurs at every level.
    The year 2011 marks the anniversary of a monumentally tragic time 
in American history, but also a time of intensive change, growth, and 
hope. We must use this opportunity to reflect upon the Civil War, the 
sacrifices, legacies, and changes in our Nation. I urge my colleagues 
to support quick passage of the Civil War Sesquicentennial Commission 
Act of 2009.
    Thank you for your consideration.
                                 ______
                                 
   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                        Connecticut, on S. 2738
    Mr. Chairman, I thank you for holding this hearing on the National 
Liberty Memorial Act, a bill I introduced with my colleague Senator 
Grassley. This important legislation would authorize the construction 
of a memorial in Washington, D.C. honoring the African American 
patriots who fought in the Revolutionary War.
    For too long, the role these brave Americans played in the founding 
of our nation has been relegated to the dusty back pages of history. 
Fortunately, historians are now beginning to uncover their forgotten 
heroism, and they estimate that more than 5,000 slaves and free blacks 
fought in the Army, Navy, and militia during the Revolutionary War. 
They served and struggled in major battles from Lexington and Concord 
to Yorktown, fighting side by side with white soldiers. More than 400 
of these brave Americans hailed from my home state of Connecticut.
    More than twenty years ago, Congress authorized a memorial to black 
Revolutionary War soldiers and sailors, those who provided civilian 
assistance, and the many slaves who fled slavery or filed petitions to 
courts or legislatures for their freedom. Unfortunately, the group 
originally authorized to raise funds for and build the memorial was 
unable to conclude its task, and there remains no memorial to the 
important, and too often unacknowledged, contributions made by these 
5,000 Americans.
    But a group of committed citizens has formed the Liberty Fund DC to 
complete this memorial and ensure that these patriots receive the 
tribute they deserve here in our nation's capital. I'm grateful that 
the Committee has invited Mr. Maurice Barboza to testify to the 
importance of this memorial today today, and I am honored to work 
alongside Mr. Barboza and the many others who have made honoring the 
contributions of these Americans their life's work.
    The time has come to recognize the sacrifice and the impact of the 
African Americans who fought for the birth of our country. I urge my 
colleagues to support the National Liberty Memorial Act.
                                 ______
                                 
 Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming, 
                               on S. 2722
    Thank you for holding this hearing today Mr. Chairman on S.2722, 
the ``Heart Mountain Relocation Center Study Act.'' This legislation 
will authorize the National Park Service to conduct a special resource 
study of the site of Heart Mountain Relocation Center near Powell, 
Wyoming.
    The site is an important part of our national history and of the 
history of our communities in western Wyoming. Between 1942 and 1945, 
when Japanese American families from the West Coast were forcibly moved 
to Park County, Wyoming and interned at the site near Heart Mountain. 
During those years, the Heart Mountain site was the third-largest 
community in Wyoming, housing nearly 11,000 Japanese Americans. The 
experience during those years shaped internees and local residents 
alike. It represents an important chapter in American history.
    This legislation is a credit to the individuals, local communities 
and grassroots organizations supporting recognition of the Heart 
Mountain site. I have submitted eleven separate letters of support for 
S.2722 to be a part of today's hearing record. I encourage Senators to 
read the heartfelt comments of Senator Alan Simpson and Secretary 
Norman Mineta about their experience as children at Heart Mountain. 
They are accompanied by support from local organizations, including the 
Heart Mountain Wyoming Foundation and the Park County Commissioners, 
along with national organizations, including The Conservation Fund, the 
Japanese American Citizens League, the National Parks Conservation 
Association, and the National Trust for Historic Preservation.
    The Heart Mountain Relocation Center Study Act will help to define 
this historic site. It will allow us to determine the best way to 
recognize the site as an important part of our national history. I look 
forward to working with this Committee to advance consideration of this 
bill.
    Thank you, Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Michael B. Enzi, U.S. Senator From Wyoming, 
                               on S. 2722
    Mr. Chairman, thank you for holding a hearing today on S. 2722, the 
Heart Mountain Relocation Center Study Act of 2009. The bill would 
authorize the Secretary of the Interior to conduct a special resource 
study to determine the suitability and feasibility of adding the Heart 
Mountain Relocation Center as a unit of the National Park System.
    Heart Mountain, Wyoming was one of ten relocation centers created 
during World War II to house Japanese and Japanese-Americans who were 
forcibly relocated inland from the west coast. The current site 
contains the most existing structures of any site in the country. To 
memorialize this history, the Heart Mountain, Wyoming Foundation is 
working to develop a Learning Center on the site of the Internment 
Camp. The Foundation is a well-established and credible organization 
with notable Board and Advisory Board members including former Senator 
Alan Simpson and former U.S. Department of Commerce and U.S. Department 
of Transportation Secretary Norman Mineta. Senator Simpson and 
Secretary Mineta first met as Boy Scouts when Senator Simpson's Cody, 
Wyoming Scout Troop visited Secretary Mineta's troop while he was 
interned as a young man in the Heart Mountain camp. They developed a 
bond that would last for decades and eventually served in Congress 
together.
    Private and public entities alike strongly believe that Heart 
Mountain, Wyoming should be preserved for future generations. I, too, 
believe preservation of one of our country's landmarks from World War 
II should be saved so our children and grandchildren have another tool 
to learn about our country's history. There are many ways to preserve 
this important landmark, and our legislation allows for study of one of 
those methods.
    With introduction of S. 2722, we are examining whether the Heart 
Mountain Relocation Center meets the criteria to be a part of our 
National Park System. Simply because we introduced this legislation 
does not guarantee that Heart Mountain will become a part of the 
National Park System. The bill will allow the Secretary to study that 
question and to make a recommendation based on the merits of Heart 
Mountain and how it would fit within the entire National Park System.
    Heart Mountain Camp internees want to leave a legacy of learning 
through this Center to future generations such that abridgements of 
freedoms and lack of ethnic understanding not occur again in this great 
country. Preserving the land and structures and building the Learning 
Center will do just that. The Heart Mountain Relocation Center Study 
Act of 2009 is the next step forward in making their dream a reality.
    Thank you again, Mr. Chairman, for considering the merits of the 
Heart Mountain Relocation Center Study Act of 2009. Senator Barrasso 
and I look forward to working with you on further advancing this 
legislation this Congress.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman.
    We do have a full agenda--and I'll be brief--an agenda that 
includes 8 bills.
    I understand that today's hearing is probably the last of 
this subcommittee this year. Yay. We're glad to be at that 
point, and I'd like to take this moment to acknowledge the 
leadership of Chairman Udall of the subcommittee. It's been 
very productive so far this year, and I know all the members 
appreciate the leadership in addressing their bills in a timely 
fashion.
    Most of the bills before us today involve memorials in 
Washington, DC, and elsewhere. All these memorials commemorate 
very important historic events in our Nation's history, but one 
bill is particularly important to me, S. 2097, which I 
cosponsored, to rededicate the DC War Memorial as a National 
and DC World War I Memorial, also known as the Frank Buckles 
World War I Memorial Act.
    We are very honored to have Mr. Buckles here with us today, 
and I would like to not only thank him for his service to his 
country, but also for joining us here today in an effort to 
establish a World War I Memorial for all of our Nation's 
veterans on our National Mall.
    Having said that, there's also competing legislation. I 
think it's important for all members to thoroughly look at both 
pieces of legislation and to fairly evaluate both proposals 
that are on the table.
    I would like to thank all of our witnesses for being here.
    I yield the floor.
    Senator Udall. Thank you, Senator Burr.
    I would also like to acknowledge Mr. Buckles' daughter, 
Suzanne, is here. I was pleased to learn from her that Mr. 
Buckles is a big fan of cowboy boots, and I was lucky enough to 
have my cowboy boots on today. So, I want to associate myself 
with the fine words of Senator Burr and thank Mr. Buckles for 
taking the time to be with us.
    Let me turn to Senator Rockefeller for comments he would 
have.
    Senator Rockefeller, the floor is yours.

 STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, U.S. SENATOR FROM 
                         WEST VIRGINIA

    The Chairman. Thank you, Mr. Chairman and the ranking 
member, with whom I serve on the Veterans Committee.
    This is a very important effort that Senator Thune, Senator 
Webb, myself, and others are making here, the so-called ``Frank 
Buckles World War I Memorial Act.'' I'm especially proud to 
introduce Mr. Buckles, and, with the committee's permission, 
after--I understand the committee will allow him to say a word. 
His daughter, Suzanne, as you pointed out, is here. She's 
integral to his life. I've been to his house and walked with 
awe through his library to see books written in Chinese and 
German and French and Spanish, all of which he spoke at one 
time or another, and probably still does. Extraordinarily--not 
just patriotic but educated and visionary patriot.
    I think it's really important that we have this memorial. I 
recognize there are others that have their views, but this is 
Washington, DC. This would not be the creation of a new mall, 
it would be the rededication of a mall--of a memorial that 
Herbert Hoover dedicated for those who served in World War I, 
but it's never really gone over to the full veteran side of 
matters, as have--is the case with some others that just honor 
those who died in World War I. The wounds from World War I were 
often not very well treated, and--so that Frank Buckles is not 
here today just to share his remarkable story of valor and his 
own historic nature, but also as chairman of the World War I 
Memorial Foundation.
    Washington is the capital of the Nation. It's the center 
point of the spiritual value. Some could say that Congress 
doesn't always present all those spiritual values in the most 
admirable way, but, in terms of our fighting soldiers and our 
great moments in history and our great patriots, this is the 
center, and this is where they deserve to be honored.
    I honestly believe, and strongly believe, that our Nation 
owes a tremendous debt--more 4.3 million Americans, who, like 
Frank Buckles, offered to go to service for a period of 4 
years. So, I strongly support Senator Thune, Senator Webb's and 
my proposal to have that firmly established, not just for the 
dead, but also for the survivors, of whom there is only one, 
and he's with us in this room. At the conclusion of the other 
two members' presentation, I would ask--hope that I could ask 
Mr. Buckles to say a word.
    I thank the Chair.
    Senator Udall. Thank you, Senator Rockefeller.
    Let me turn to Senator Thune for his remarks.

  STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    It is a great honor to be able to be here today, in the 
presence of the lone survivor of that great conflict. I 
appreciate Senator Rockefeller, who is Mr. Buckles' home-State 
Senator, taking a lead on this, and Senator Webb, who has 
combat experience, been a great advocate for those who have 
served our country.
    We think that this bill--what it does is, it does something 
that I think is very fitting, and that is to add a memorial to 
those veterans of World War I. We have what we call the 
``memorial triangle'' on the National Mall today--World War II, 
Korea, Vietnam. There were, as Senator Rockefeller said, over 4 
million Americans who served in World War I; over 100,000 
casualties. It really was the first step in America's path to 
superpower status, something that--there was so much sacrifice 
that was made by people in this country, although we were only 
involved in the conflict for about 18 months.
    So, I think it's fitting that all the great wars of the 
20th century have their place on the National Mall, so that the 
people, when they come here to pay their respects and to honor 
and pay tribute to those who served in all those great 
conflicts, to also have the opportunity to honor the veterans 
of World War I.
    So, I hope that we can move this legislation. I hope we can 
move it fairly quickly. I understand the issues with regard to 
Missouri. I hope that we can work through those. It seems, to 
me at least, that where--with respect to our National Mall, 
that we ought to have a place that recognizes the service and 
sacrifice of our World War veterans--World War I veterans.
    Particularly honored, as I said, to have the lone survivor, 
the last man standing from World War I with us here today, in 
Mr. Frank Buckles.
    So, thank you, Mr. Chairman, for the opportunity, and 
appreciate the chance to have a hearing on this legislation.
    [The prepared statement of Senator Thune follows:]
Prepared Statement of Hon. John Thune, U.S. Senator From South Dakota, 
                               on S. 2097
    Chairman Udall, Ranking Member Burr, distinguished colleagues, 
thank you for the opportunity to discuss S. 2097, the Frank Buckles 
World War I Memorial Act. For far too long, the sacrifices of American 
World War I veterans have gone unrecognized on the National Mall in 
Washington, DC. Senator Rockefeller, Senator Webb and I introduced this 
legislation to provide proper recognition, which is long overdue.
    The Frank Buckles World War I Memorial Act would rededicate the 
existing District of Columbia War Memorial as the National and District 
of Columbia World War I Memorial on the National Mall in Washington, 
DC. The act is named for Frank Buckles of West Virginia, who at 108 
years of age is the last surviving American World War I veteran.
    While the United States was in World War I for only 18 months, the 
war had profound effects on our nation. Without question, World War I 
thrust the U.S. onto the world stage. The U.S. lost over 100,000 brave 
men fighting the war, more than both the Korean War and Vietnam War 
combined.
    Today, memorials on our National Mall rightfully honor the men and 
women who served and sacrificed during World War II, the Korean War, 
and the Vietnam War. However, nowhere on the National Mall do we 
recognize the service and sacrifices of all American World War I 
veterans--veterans like Frank Buckles.
    At 108 years old, Frank Buckles is the last surviving American 
World War I veteran. He joined the Army at the age of 16 and served in 
Europe during World War I, driving ambulances and motorcycles for a 
casualty detachment. Mr. Buckles is also the Honorary Chairman of the 
World War I Memorial Foundation, which is seeking refurbishment of the 
District of Columbia War Memorial and its establishment as the National 
World War I Memorial on the National Mall. S. 2097, The Frank Buckles 
World War I Memorial Act will help to make this vision a reality.
    The District of Columbia War Memorial honors the 499 District of 
Columbia residents who died in World War I. This legislation would 
rededicate the District of Columbia memorial as the ``National and 
District of Columbia World War I Memorial.'' The legislation would also 
authorize the non-profit World War I Memorial Foundation to make 
repairs and improvements to the existing memorial, as well as install 
new sculptures or other commemorations at the memorial to underscore 
the sacrifice of over 4 million Americans who served in World War I.
    The bill would not require any taxpayer dollars because the World 
War I Memorial Foundation would raise the necessary funds through 
private donations.
    All of the major wars our nation has fought in the 20th century are 
memorialized on the National Mall. Rededicating the District of 
Columbia World War I Memorial as the National and District of Columbia 
World War I Memorial fits the narrative of the Mall, with its wonderful 
memorials to World War II, the Korean War, and the Vietnam War. I think 
it only makes sense to rededicate a memorial to this twentieth century 
war that established our nation's path to superpower status among the 
community of nations. I can think of no better way to honor Mr. Buckles 
and his departed comrades than by passing this bill which would provide 
long overdue recognition of all World War I veterans in our nation's 
capital.
    Thank you for holding this hearing today. I look forward to working 
with this subcommittee and my colleagues to pass this bill.

    Senator Udall. Thank you, Senator Thune, for those 
thoughtful remarks and for taking the time to join the 
subcommittee.
    Senator Webb.

           STATEMENT OF HON. JIM WEBB, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman, and also, Senator 
Burr, for your cosponsoring of the measure. I appreciate that--
the timely hearing that you brought forward here.
    I would like also to express my appreciation to Senator 
Thune for having originally brought forth this idea. It's a 
very sensible approach. Actually, My personal view is that we 
might be able to do something in concert with the other 
proposal. I recently spoke at the National Civil War Museum. 
It's in Harrisburg, Pennsylvania. It would be logical, if they 
were able to make their case for a World War I Museum, that it 
might be appropriately located in Missouri, where President 
Truman hailed from. He was a veteran of World War I. But, in 
terms of a national memorial to World War I service, I don't 
think there could be any better place.
    If I could just ask my staff member to put this--with 
thanks to Google Earth. This the Mall. To your left would be 
the Lincoln Memorial; to the right would be the Washington 
Monument. You can see the--just the natural flow of the wars of 
the 20th century, if we were to put the--to take this memorial 
in the right--lower right-hand corner, which is now the 
District of Columbia War Memorial, not add any more space, and 
no cost--this is privately funded--then you would have, in the 
Mall area, the Vietnam Veterans Memorial and then, going 
clockwise, the World War II Memorial, the World War I Memorial, 
and the Korean War Memorial. I can think of no greater tribute 
to those who fought the larger wars of the 20th century, to 
have them located in a way that they can be accessible to those 
who come and visit our national capital.
    With that, I again thank the Chair for this timely hearing. 
I hope we can work out something with the situation in 
Missouri.
    Thank you, Mr. Chairman.
    Senator Udall. Senator Rockefeller, let me turn to you, if 
I might, because the vote has just been called. We have been 
joined by Congressman Cleaver, and I know we want to hear his 
testimony, but I think it's very important to hear from Mr. 
Buckles, so I'd like to recognize you and----
    The Chairman. There's no need to introduce Frank Buckles. 
He's the last man standing, and an extraordinary man, at that. 
I just think that he should, as chairman of the Foundation--
honorary chairman of the Foundation, have something to say. I 
appreciate your courtesy on this matter, of course.
    Senator Udall. Mr. Buckles, the floor is yours.
    Voice: Papa, you want to--go ahead and tell them what you 
think. Can you do it?
    Mr. Buckles. What am I supposed to say?
    Voice: You're supposed to tell them what you think about 
having a World War I Memorial on the Mall.
    Mr. Buckles. Oh. I think it's an excellent idea. I think it 
was a nice idea to call it a National and--DC.
    Voice: Thank you, sir.
    Senator Udall. Thank you, Mr. Buckles.
    I'm tempted to adjourn the hearing, because the case has 
been made----
    [Laughter.]
    Senator Udall [continuing]. But I know Senator Bond and 
Senator McCaskill would want to have their say, as well, as 
Congressman Cleaver is here to testify.
    Congressman Cleaver, thank you for making the trip over to 
the Senate side. It's great to see you. We served together in 
the House. You'd like to share your testimony with us at this 
time, and the floor is yours.

STATEMENT OF HON. EMANUEL CLEAVER, II, U.S. REPRESENTATIVE FROM 
                            MISSOURI

    Mr. Cleaver. Sure. Thank you.
    Mr. Chairman, it is somewhat uncomfortable testifying in 
opposition to some folk with whom I agree, about 99 percent of 
the time. But, I think it may have some importance for me to 
share with this committee what's going on in Kansas City. I 
think it is important, also, that, if you have not seen the 
Liberty Memorial in Kansas City, that it's difficult to have a 
good perspective.
    Mr. Chairman, before you is a newspaper article--front-page 
newspaper article, from the Kansas City Star. This newspaper 
article is important because, shortly after I became mayor, the 
first directive from me was to restore the eternal flame at the 
top of the Liberty Memorial. It's actually steam, it's not 
flame. The Liberty Memorial, which you'll hear from our 
director shortly, was an effort put together by people in the 
community shortly after the end of World War I. It was built 
completely, and financed, by the people of Kansas City, 
Missouri. It went into some decay.
    I came to Washington as mayor, made a request that the 
Liberty Memorial be taken over by the National Park Service. 
They politely declined, saying that the National Park Service 
had difficulty trying to maintain all of the memorials they 
presently hold responsibility for.
    I went back to Kansas and City and made a pitch to the 
voters Kansas City. They responded and approved a sales tax, 
which was used to restore the Liberty Memorial. From that point 
on, the people of Kansas City, Missouri--the voters--decided 
that this was something that we would do. We would assume the 
responsibility. We did not want one dime from the Federal 
Government. This is no small monument.
    This is the Liberty Memorial today. This is downtown Kansas 
City in the background, Missouri's largest city. This is the 
Liberty Memorial. Just 11 months ago, President Barack Obama 
stood on the mall with 75,000 people in the background. I drew 
the people there, but he spoke----
    [Laughter.]
    Mr. Cleaver [continuing]. After I spoke. Seventy-five 
thousand people on the mall of the Liberty Memorial.
    Every year, there's a Veterans Day observance, where people 
from all over--all over the country--in fact, Mr. Buckles, 2 
years ago, I sat next to him and his daughter at the Liberty 
Memorial on Veterans Day. The people of Kansas City, Missouri, 
are saying to the U.S. Senate the same thing they said to the 
House, which voted 418 to 1 to support this, that we want 
absolutely no money from the United States Federal Government. 
We don't need to raise any money around the country. We are 
going to assume the responsibility for supporting and 
preserving the Liberty Memorial, which was built not as a 
municipal memorial, but as the national memorial, which is why 
100,000 people, including all five leaders of the allied 
forces, gathered here for the beginning and opening to the 
Liberty Memorial. This is a national monument. If there is, 
sometime in the future, a need for repair, we will do it.
    We've added an entire dimension to it--a new dimension to 
this, because now we have a museum on the lower level of the 
museum. It is one of the most stately monuments that you will 
see anyplace, day or night. You can see it from all over Kansas 
City. Our community is a city that stretches 322 square miles. 
You can virtually see the top of the Liberty Memorial anyplace 
in Kansas City, Missouri. It is a city, as we say, on a hill.
    So, Mr. Chairman and members of the committee, I think that 
what we are trying to say to you, and we successfully said it 
to our colleagues in the House, across party lines, that this 
was something that our community will continue to give for the 
Nation. We assume the responsibility completely, and we hope 
that you would see fit to give the people of Kansas City the 
opportunity to continue to spend their own money to preserve 
something for the Nation.
    [The prepared statement of Mr. Cleaver follows:]
  Prepared Statement of Emanuel Cleaver, II, U.S. Representative From 
                   Missouri, on S. 760 and H.R. 1849
    Chairman Udall, Ranking Member Burr and other members of the 
Subcommittee, thank you for the opportunity to testify on behalf of S. 
760 and H.R.1849 to designate the Liberty Memorial as the National 
World War I Memorial and to establish a World War I Centennial 
Commission. Along with my Missouri colleagues, Representatives Akin, 
Blunt, Carnahan, Clay, Emerson, Graves, Luetkemeyer, and Skelton, plus 
101 other House cosponsors, we introduced and passed a bill in the 
House of Representatives designating the Liberty Memorial at the 
National World War I Museum in Kansas City, Missouri as the National 
World War I Memorial by a vote of 418-1. This bill also establishes a 
Centennial Commission to ensure a fitting observance of the centennial 
of World War I.
    The First World War extended through four of the bloodiest years in 
world history. This truly global conflict involved the world's major 
powers, mobilizing over 70 million military forces. The War to End All 
Wars ended with an armistice on November 11, 1918 on the Western Front 
in Europe, after approximately 16 million military and civilian deaths 
across the globe, including 375,000 American casualties. The death and 
destruction of World War I irrevocably impacted the lens through which 
people viewed the world: The optimism that initiated the early 1900s 
was swiftly sobered by a consciousness that came to be known as the 
Lost Generation.
    Many people, however, were determined to make this generation a 
generation remembered and honored. Concerned American citizens in 
Kansas City, Missouri initiated a movement to erect a lasting and 
meaningful monument to the men and women who served and died for 
liberty in World War I.
    According to R.A. Long, the founding president of the Liberty 
Memorial Association, the 217-foot Liberty Memorial was intended to 
represent ``on the part of all people, a living expression for all time 
of the gratitude of a grateful people to those who offered and who gave 
their lives in defense of liberty and our country.'' In 1919, the 
people of Kansas City, Missouri expressed an outpouring of support and 
raised more than $2,500,000.00, or the equivalent of $30, 815,028.90 
today, in two weeks for a memorial to the service of Americans in World 
War I. This fundraising was an accomplishment unparalleled by any other 
city in the United States and reflected the passion of public opinion 
about World War I, at the forefront of everyone's memory.
    H. Van Buren Magonigle won a national architectural competition 
officiated by the American Institute of Architects to further transform 
the Liberty Memorial idea into reality. On November 1, 1921, nearly 
200,000 people witnessed the dedication of the site for the Liberty 
memorial in Kansas City, Missouri. The dedication marked the only time 
in history that the five allied military leaders--Lieutenant General 
Baron Jacques of Belgium, General Armando Diaz of Italy, Marshall 
Ferdinand Foch of France, General John J. Pershing of the United 
States, and Admiral Lord Earl Beatty of Great Britain, were together at 
one place. General Pershing echoed the significance of the dedication 
by asserting, ``[t]he people of Kansas City, Missouri are deeply proud 
of the beautiful memorial, erected in tribute to the patriotism, the 
gallant achievements, and their heroic sacrifices of their sons and 
daughters who served in our country's armed forces during the World 
War. It symbolized their grateful appreciation of duty well done, an 
appreciation which I share, because I know so well how richly it is 
merited.''
    Shortly after its dedication, the Liberty Memorial was again 
distinguished during an Armistice Day ceremony in 1926 when President 
Calvin Coolidge marked the beginning of its three-year construction 
project by laying the cornerstone of the memorial. In his dedication 
speech, President Coolidge declared that ``[. . .] the magnitude of 
this memorial and the broad base of popular support on which it rests, 
can scarcely fail to excite national wonder and admiration [. . .].'' A 
message on the Liberty Memorial's tower bears an inscription that 
inspired its namesake: ``In Honor of Those Who Served in the World War 
in Defense of Liberty and our Country.'' Four stone ``Guardian 
Spirits'' representing courage, honor, patriotism, and sacrifice 
proudly perch above an observation deck, making the Liberty Memorial a 
noble tribute to all who served in World War I.
    The evidence articulated above demonstrates that the Liberty 
Memorial already is, has been, and deserves to be regarded as a 
national tribute to World War I. This legislation aims to make official 
what so many people already consider to be the National World War I 
Memorial.
    While we look to the Liberty Memorial in remembrance of World War 
I, we likewise must look to the upcoming World War I centennial, to be 
honored in 2017. To ensure a proper observance of the World War I 
centennial, this legislation also aims to create a commission to be 
known as the World War I Centennial Commission. The Commission will 
promote not only a suitable observance of the centennial of World War 
I, but will also recognize the values of honor, courage, patriotism, 
and sacrifice, in keeping with the representation of these values 
through the four Guardian Sprits sculpted on the Liberty Memorial 
Monument. The Commission will plan, develop, and execute programs, 
projects, and activities to commemorate the centennial of World War I. 
With Kansas City, Missouri as its official host, the Commission will be 
composed of twenty-four members who will work together to facilitate 
and coordinate activities throughout the United States to honor the 
Great War.
    Mr. Chairman, Ranking Member Burr, it is with great pride that I 
speak for myself, our Missouri Congressional Delegation and the 
citizens of Missouri in support of this legislation to make official 
the historic, powerful, and unparalleled stature of the Liberty 
Memorial as the National World War I Memorial coupled with the 
establishment of the World War I Centennial Commission to properly 
observe the World War I centennial. We owe the Liberty Memorial's 
designation as the National World War I Memorial to the hundreds of 
thousands of people, including those who served our country in World 
War I, who have looked to the Liberty Memorial as the interminable 
symbol of sacrifice and sovereignty that continue to shape our country. 
The World War I Centennial Commission will further observe America's 
historic commitment to freedom and appropriately remember those who 
fought for our country in the War to End All Wars.
    Mr. Chairman, Ranking Member Burr, attached to my testimony is an 
overview of events at the Liberty Memorial, a time line of Significant 
Dates at the Liberty Memorial and reasons to support the Liberty 
Memorial designation as the National World War I Memorial.
 attachment.--overview, timeline and reasons to support of the liberty 
                 memorial as the national wwi memorial
Historical Background Overview
  <bullet> An armistice was declared on November 11, 1918 to end the 
        fighting on the Western Front.
  <bullet> Concerned citizens in Kansas City, Missouri were determined 
        to commemorate those who served in WWI.
  <bullet> Shortly after the armistice in November 1918, community 
        leaders galvanized a campaign to raise money for the 
        construction of a lasting tribute to the men and women who 
        fought in WWI.
  <bullet> Within ten days--during an influenza epidemic--Kansas 
        Citians raised $2.5 million for the construction of what came 
        to be known as the Liberty Memorial. $2.5 million calculated 
        for inflation in today's currency would be worth 
        $30,815,028.90.
  <bullet> This fundraising was an accomplishment unparalleled by any 
        other city in the United States and reflected the passion of 
        public opinion about World War I, at the forefront of 
        everyone's memory. The slogan of the campaign was ``Lest the 
        Ages Forget.''
  <bullet> Following the fund raiser was a national competition for the 
        selection of the New York architect H. Van Buren Magonigle.
  <bullet> Construction of the Liberty Memorial began in 1921 which was 
        commemorated with a dedication ceremony on November 1, 1921, 
        attended by General John J. Pershing of the United States; 
        Admiral Lord Beatty of Great Britain; General Armando Diaz of 
        Italy; Marshal Ferdinand Foch of France; and Lieutenant General 
        Baron Jacques of Belgium.

    --The dedication marked the only time in history that the five 
            allied military leaders were together at one place.
    --The allied military leaders spoke to a crowd of nearly 200,000.
    --General Pershing echoed the significance of the dedication by 
            asserting, ``[t]he people of Kansas City, Missouri are 
            deeply proud of the beautiful memorial, erected in tribute 
            to the patriotism, the gallant achievements, and their 
            heroic sacrifices of their sons and daughters who served in 
            our country's armed forces during the World War. It 
            symbolized their grateful appreciation of duty well done, 
            an appreciation which I share, because I know so well how 
            richly it is merited.''
    --Harry S. Truman played a high-profile role in the parade 
            following the 1921 dedication ceremony as Vice Chairman of 
            the Decoration Committee of the American Legion.

  <bullet> On Armistice Day in 1926, President Calvin Coolidge marked 
        the beginning of the three-year construction project by laying 
        the cornerstone of the memorial.

    --In his dedication speech, President Coolidge declared that ``[. . 
            .] the magnitude of this memorial and the broad base of 
            popular support on which it rests, can scarcely fail to 
            excite national wonder and admiration [. . .].''

  <bullet> There has been a Veterans Day observance at the Liberty 
        Memorial every year since 1926.
  <bullet> There has been a Memorial Day observance at the Liberty 
        Memorial every year since 1948.
  <bullet> A rededication ceremony in 1961 was marked by the attendance 
        of President Harry S. Truman and President Dwight D. 
        Eisenhower.

    --Then Mayor H. Roe Bartle expressed his support of the 
            rededication ceremony: ``For four decades Kansas City has 
            pointed to its unique and unusual war memorial with pride. 
            Millions of people from over the globe have visited our 
            shrine to our heroic dead who fought in World War I for 
            freedom of the world. It pleases me that the American 
            Legion, the Veterans of Foreign Wars, and other veterans' 
            associations are joining hands with the city to make the 
            40th anniversary program an event not soon to be 
            forgotten.''
    --Representatives from 57 nations were present at the rededication 
            ceremony; this was the largest diplomatic gathering ever 
            assembled in the Middle West.
    --A crowd of 40,000 attended the ceremony; as in the celebrations 
            of 1921 and 1926, schools dismissed afternoon classes and 
            businesses around Kansas City closed their doors for the 
            event.
    --President Eisenhower delivered a speech addressing his hopes for 
            everlasting world peace and the elimination of totalitarian 
            power.

  <bullet> A rededication ceremony in 2002 was attended by General 
        Myers as the Keynote as well as dignitaries from Italy, France, 
        Belgium, and the United Kingdom.
  <bullet> The Liberty Memorial that overlooks Kansas City extends far 
        beyond the Kansas City limits. The Memorial serves as a 
        perennial reminder of and for all Americans who served our 
        country during World War I.
Reasons to Support the Liberty Memorial as the World War I National 
        Memorial

  <bullet> The Liberty Memorial already exists and would not require 
        any additional construction.
  <bullet> The Liberty Memorial is open to a partnership with the 
        National Parks Service, but would prefer independent 
        administration.
  <bullet> The Liberty Memorial was recognized by the 106th Congress as 
        a national symbol of World War I. (The concurrent Resolution 
        was passed on October 24, 2000, ``Recognizing the Liberty 
        Memorial in Kansas City, Missouri, as a national World War I 
        symbol honoring those who defended liberty and our country 
        through service in World War I.'')
  <bullet> The Liberty Memorial is a National Landmark (as of September 
        20, 2006).
  <bullet> The Liberty Memorial has been designated as a National 
        Symbol for World War I.
  <bullet> The Liberty Memorial ultimately seeks the recognition as the 
        National WWI Memorial; it does not necessarily wish to be 
        managed by the National Parks Service. As with the designation 
        of the National WWI Museum, the Liberty Memorial would prefer 
        to be independently administered. Hundreds of thousands of 
        people--since the memorial's inception and even today--regard 
        the Liberty Memorial as a powerful symbol of and tribute to 
        Americans who served in World War I.
  <bullet> There is no nationally recognized memorial honoring the 
        service of Americans who served in World War I.
  <bullet> Kansas City is home to the National World War I Museum (as 
        designated by Congress in 2004), which is adjacent to the 
        Liberty Memorial.
  <bullet> An inscription on the Liberty Memorial tower reads, ``In 
        honor of those who served in the world war in defense of 
        liberty and our country.''
  <bullet> Many other national monuments exist outside of Washington, 
        DC (examples include the Mt. Rushmore National Memorial in 
        South Dakota; the Jefferson National Expansion memorial in St. 
        Louis, Missouri; the AIDS Memorial Grove in San Francisco, 
        California; the Benjamin Franklin National Memorial in 
        Philadelphia, Pennsylvania; the Chamizal National Memorial in 
        Texas, etc.)
  <bullet> Not only does the Liberty Memorial already exist, it boasts 
        an extensive and unparalleled history.
  <bullet> H.R. 1849, the World War I Memorial and Centennial Act of 
        2009, passed the House of Representatives on November 5, 2009, 
        by a vote of 418-1.
Important Dates at the Liberty Memorial





November 11, 1918                     at 11am                Armistice ended fighting on the Western front.
                                                             ...................................................
November                              1918                   Citizens gathered to gather support to create a
                                                              lasting monument to those who serve and those who
                                                              died.
                                                             ...................................................
                                      1919                   Campaign initiated to raise money. In only ten days
                                                              and in the middle of a deadly influenza epidemic,
                                                              Kansas Citians gave generously to the fund drive,
                                                              whose slogan was ``Lest the Ages Forget.''
                                                             ...................................................
                                      1921                   Site Dedication: Construction began with a
                                                              dedication ceremony with General John J. Pershing
                                                              of the United States, Admiral Lord Early Beatty of
                                                              Great Britain, General Armando Diaz of Italy,
                                                              Marshal Ferdinand Foch of France, and Lieutenant
                                                              General Baron Jacques of Belgium. Harry S. Truman
                                                              played a high-profile role in the parade following
                                                              the 1921 dedication ceremony for the Liberty
                                                              Memorial. Vice President Coolidge was also in
                                                              attendance.
                                                             ...................................................
                                      1926                   Armistice Day, Opening day and Dedication for the
                                                              Liberty Memorial led by President Coolidge who
                                                              gave a speech.
                                                             ...................................................
                                      1926-present           Every Veterans Day has been observed at the Liberty
                                                              Memorial.
                                                             ...................................................
                                      1948-present           Every Memorial Day has been observed at the Liberty
                                                              Memorial.
                                                             ...................................................
                                      1961                   Rededication Ceremony--President Harry S. Truman
                                                              and President Dwight D. Eisenhower where in
                                                              attendance.
                                                             ...................................................
                                      2002                   Rededication--General Myers was Keynote,
                                                              Dignitaries from Italy, France, Belgium and United
                                                              Kingdom were also in attendance.



    Senator Udall. Thank you, Congressman Cleaver, for those 
compelling words, and for the history that's attached to the 
project that you led and brought to fruition. We look forward 
to working with you, and the Senators that are here, to find a 
reasonable way forward, to commemorate the work of people like 
Frank Buckles, and the heroism that is attached to it.
    I think we do have a vote on the floor of Senate at this 
time. I think we ought to recess the committee, and we'll 
return as quickly as we can to continue the hearing.
    So, thanks, again, to the witnesses who took the time to 
join us. Thanks, to Mr. Buckles.
    [Recess.]
    Senator Udall. The Subcommittee on National Parks will come 
to order.
    Before I recognize Ms. Stevenson for her testimony, I 
wanted to make a few announcements.
    Senator McCaskill, the sponsor of S. 760, was unable to be 
here today, but has submitted a statement, and, without 
objection, it will be included in the hearing record. She has 
also submitted letters of support from the American Legion, the 
VFW, and the family of Sergeant Alvin C. York, and, without 
objection, those letters* will be included in the record, as 
well.
---------------------------------------------------------------------------
    * See Appendix.
---------------------------------------------------------------------------
    [The prepared statement of Senator McCaskill follows:]
Prepared Statement of Hon. Claire McCaskill, U.S. Senator From Missouri
    I would like to thank the Chairman Udall and Ranking Member Burr 
for holding this hearing on S.760 and H.R. 1849, to designate the 
Liberty Memorial in Kansas City, Missouri as the National World War I 
Memorial and to establish a World War I Centennial Commission. These 
bills seek to honor the patriotism and dedication of those who fought 
in World War I (WWI), as well as those who have to sought to preserve 
that honor embodied in a national memorial and museum.
    Just two weeks after the 1918 Armistice, members of the Kansas City 
community embarked on a campaign to create a grand monument and museum 
to honor all those who fought and lost their lives in WWI. A community-
based fundraising drive in 1919 raised over $2.5 million from citizens 
across the in US in just ten days. This was unprecedented for the time 
and reflected the passion of citizens from across the United States to 
support Kansas City's efforts to establish a memorial to all of WWI's 
fallen heroes. The national scope of the support for the endeavor and 
the inclusion of all of the nation's WWI fallen as part of the Memorial 
set the foundation for the Memorial to be recognized as a National 
memorial, a moniker we now seek to finally give the memorial.
    Underscoring the scope and breadth of the Memorial, during the 1921 
site dedication in Kansas City, the military commanders from each of 
the five Allied nations attended the dedication--the only time in 
history the five senior most military leaders from WWI were together in 
one place at the same time. Subsequently, after 3 years of 
construction, the two hundred and seventeen foot tall memorial was 
dedicated by President Calvin Coolidge before a crowd of 150,000 
people.
    In the decades since, veterans of the Great War and their families 
have come to this site to honor and remember those who fought. More 
recently, their experience has been enhanced with the expansion of the 
WWI Museum. In 2006, after a $105 million renovation, the WWI Museum 
reopened its newly renovated 32,000 square feet of exhibitions that 
nobly honor the heroes of WWI. At the updated museum, visitors can view 
films dedicated to the War in a state of the art theater; follow US 
involvement in the war from the United States' entry in 1917 to the 
Paris Peace Conference in 1919; and read real accounts of those 
connected to the war. Over 1 million people have visited the site since 
the reopening in 2006.
    On October 24, 2000 the Liberty Memorial was recognized by Congress 
as a ``national World War I symbol honoring those who defended liberty 
and our country through service in World War I''. And in 2004, Congress 
designated the museum at the Liberty Memorial the National World War I 
Museum. Given this national recognition it is only befitting that the 
Liberty Memorial be finally and rightfully recognized as the nation's 
National World War I Memorial.
    This legislation has received substantial support. The American 
Legion, the Veterans of Foreign Wars and the family of Sgt. Alvin C. 
York, the most decorated U.S. World War I soldier, have all written 
letters supporting the designation of the Liberty Memorial at the 
National World War I Memorial. Each of these letters are attached to my 
testimony. Also attached to my testimony is a photo which helps to 
illustrate the grandeur and magnificence of the Liberty Memorial and 
its presence in the city. There is truly nothing like it.
    I am aware that others are seeking to establish the District of 
Columbia World War I Monument, which resides on the National Mall here 
in Washington, D.C., as a National World War I Monument. I am saddened 
by the disrepair of the D.C. Monument and the general lack of care it 
has received over many years. I believe this must be addressed and 
remedied as soon as possible and I applaud those who have taken up this 
cause. However, I do not believe that a monument's presence on the 
National Mall alone should entitle it to the moniker of a National 
monument. Nor should a monument's presence elsewhere be exclusionary. 
Other considerations should also include the scope, history and care of 
a Monument, as well as the general manner in which the Monument is 
perceived by our citizens. With these types of considerations, it is 
clear that the Liberty Memorial in Kansas City is our nation's National 
World War I Monument. I firmly believe we should assign it that moniker 
as we approach the 100th Anniversary of World War I. I look forward to 
working with my friends supporting the D.C. Monument and to seeking a 
solution that wins that monument revitalization and appropriate 
recognition associated with its location while also recognizing the 
national nature of the Liberty Memorial.
    Again, I want to thank Chairman Udall and Ranking Member Burr for 
holding this hearing. As you can tell from my testimony am so proud to 
be the lead sponsor of this legislation and even prouder of the 
citizens of Kansas City.

    Senator Udall. We also have letters from the National 
Coalition To Save Our Mall opposing H.R. 3689, the Vietnam 
Memorial Visitor Center bill, and one from the AFL-CIO Building 
and Construction Trades Department in support of the same bill.
    We have a statement from District of Columbia shadow 
Senator Paul Strauss, opposing S. 2097, the DC World War I 
Memorial bill.
    All these letters and statements will be included in the 
hearing record.
    With that, let me turn to Ms. Stevenson, who is the 
assistant director of business services, the National Park 
Service, Department of the Interior.
    Ms. Stevenson, nice to see you. It isn't your first visit 
to the subcommittee.
    Ms. Stevenson. Thank you, Mr. Chairman.
    Senator Udall. The floor is yours.

   STATEMENT OF KATHERINE H. STEVENSON, ASSISTANT DIRECTOR, 
  BUSINESS SERVICES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
INTERIOR, ACCOMPANIED BY PETER MAY, ASSOCIATE REGIONAL DIRECTOR 
  FOR LANDS, RESOURCES, AND PLANNING, NATIONAL CAPITAL REGION

    Ms. Stevenson. Thank you very much. Thank you for the 
opportunity to appear before you today to offer the views of 
the Department of the Interior on the eight bills before you.
    I'll summarize my remarks and ask that the full text be 
entered into the record.
    With me today is Peter May, the Associate Regional Director 
for Lands, Resources, and Planning with the National Capital 
Region, in case you have any detailed questions about the 
projects on the Mall.
    S. 760 would designate the Liberty Memorial in Kansas City, 
Missouri, as the National World War I Memorial. A companion 
bill, H.R. 1849, would also establish the World War I 
Centennial Commission. The Department supports the intent of 
establishing such a commission, but believes it is premature to 
designate the Liberty Memorial as the National World War I 
Museum until a study of the various World War I memorials in 
the United States has been completed. That study would 
determine which memorial is best suited to be named the 
official National World War I Memorial. Such a study would be 
timely, as S. 2097, before you today, also proposes designation 
of the DC World War I Memorial as a National World War I 
Memorial. In 2008, the Congress directed the National Park 
Service to study the Soldier Memorial Military Museum in Saint 
Louis, also a World War I Memorial, as a potential addition to 
the National Park System.
    S. 1838 would establish a Civil War Sesquicentennial 
Commemoration Commission to ensure that there's a suitable 
national observance of the 150th anniversary of the Civil War. 
The Department supports enactment, with some minor amendments.
    S. 2097 would rededicate and enhance the DC War Memorial as 
a National and District of Columbia World War I memorial. The 
Department cannot support S. 2097, both for the reasons I 
explained regarding other World War I Memorial candidates, and 
because the sculptural or commemorative elements proposed would 
so alter the existing memorial in purpose and design that the 
result would be, in effect, the creation of a new memorial 
within the reserve. Our position is supported by the National 
Capital Memorial Advisory Commission and by the American Battle 
Monuments Commission.
    S. 2722 would authorize the Secretary to conduct a study to 
determine whether it is suitable and feasible to add Heart 
Mountain Relocation Center as a unit of the National Park 
Service. The Department supports this bill. However, we feel 
that priority should be given to the 49 previously authorized 
studies.
    S. 2726 would modify the boundary of the Minuteman Missile 
National Historic Site in South Dakota by transferring 25 acres 
of Buffalo Gap National Grassland from the U.S. Forest Service 
to the National Park Service for use as a visitor facility and 
administrative site. The Department supports this bill, with 
some technical amendments.
    S. 2738 would authorize the National Mall Liberty Fund DC 
to establish a memorial in DC on Federal land to honor free 
persons and slaves who fought during the American Revolution. 
The Department supports the bill if it is amended to conform to 
the principles, purposes, and requirements of the Commemorative 
Works Act. While S. 2738 states that the memorial shall in 
established in accordance with the Commemorative Works Act, the 
bill contravenes a critical requirement of that Act by 
preselecting Area 1 as the site. You will recall that the 
Commemorative Works Act was amended in 2003 to provide for the 
establishment of a reserve where no additional memorials may be 
located.
    Finally, H.R. 3689 would extend by 4 years the authority of 
the Vietnam Veterans Memorial Fund, Incorporated, to establish 
a visitor center. The Department supports that bill.
    Mr. Chairman, this concludes my prepared testimony. I'd be 
happy to answer any questions you might have.
    [The prepared statements of Ms. Stevenson follow:]
   Prepared Statement of Katherine H. Stevenson, Assistant Director, 
 Business Services, National Park Service, Department of the Interior, 
   Accompanied by Peter May, Associate Regional Director for Lands, 
            Resources, and Planning, National Capital Region
                          s. 760 and h.r. 1849
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
760 and H.R. 1849, bills to designate the Liberty Memorial at the 
National World War I Museum in Kansas City, Missouri, as the National 
World War I Memorial. H.R. 1849 also establishes the World War I 
Centennial Commission to ensure a suitable observance of the centennial 
of World War I.
    The Administration appreciates the sponsors' recognition of the 
sacrifices of Americans who served in World War I. This is an important 
era in American history which has been honored through a number of 
monuments throughout the nation. The Administration shares the 
sponsors' sentiment on this subject and would like to continue working 
with the Congress on it.
    We believe however, that it is premature to designate the Liberty 
Memorial at the National World War I Museum in Kansas City, Missouri, 
as the National World War I Memorial. There has not been any study 
authorized or conducted to determine which of the various World War I 
Memorials in the United States would be best suited to be named as the 
single or official National World War I Memorial. The Department of the 
Interior supports the intent of establishing a World War I Centennial 
Commission; however, the Department of Justice has advised that it has 
constitutional concerns about certain appointment provisions in the 
bill and we understand Justice is providing its recommended amendments 
to the Committee to resolve these concerns. The Office of Personnel 
Management and the Office of Government Ethics would also welcome the 
opportunity to work with the Committee to address matters related to 
the status of the Commission's members and employees for purposes of 
various laws governing Federal employment. We defer to those agencies 
for the specifics of their concerns..
    Both S. 760 and H.R. 1849 as passed by the House would designate 
the Liberty Memorial at the National World War I Museum in Kansas City, 
Missouri, as the National World War I Memorial. H.R. 1849 also would 
establish the World War I Centennial Commission to plan and execute 
various activities to commemorate the centennial of World War I, 
encouraging private organizations and other governmental entities to 
participate in the centennial, and coordinate these activities 
throughout the United States. The Commission would consist of 21 
members appointed by the President and certain members of Congress and 
would also include the executive director of the American Legion and 
the president of the Liberty Memorial Association. The bill authorizes 
$500,000 for fiscal years 2010 through 2019 to carry out the activities 
of the commission. The Administrator of General Services would provide 
the administrative support services to the Commission.
    Mr. Chairman, our Department would be pleased to work with the 
Commission if it is established. This concludes my testimony. I will be 
pleased to answer any questions from members of the Committee.
                                s. 1838
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 
1838, a bill that would establish a commission to commemorate the 
Sesquicentennial of the American Civil War.
    The Department supports the enactment of this legislation subject 
to addressing some minor amendments discussed in our testimony and the 
concerns of the Department of Justice, which has advised that it may 
have constitutional concerns about an appointment provision in the bill 
and will provide its recommended amendments, if any, at a later date to 
address these concerns. The Office of Personnel Management and the 
Office of Government Ethics also welcome the opportunity to work with 
the Committee to address matters related to the status of the 
Commission's members and employees for purposes of various laws 
governing Federal employment. We defer to those agencies for the 
specifics of their concerns.
    S. 1838 would establish a Civil War Sesquicentennial Commemoration 
Commission to cooperate with and assist States and national 
organizations with programs and activities to ensure a suitable 
national observance of the 150th anniversary of the Civil War. It also 
authorizes a grant program for the development of programs, projects, 
and activities on the Civil War that have lasting educational value.
    The Civil War was, in the words of Robert Penn Warren, ``the great 
single event of our history.'' It was the both the greatest disaster 
that has ever befallen our nation, and also our era of greatest 
achievement. It was a wrenching conflict that resulted in the loss of 
620,000 lives, the liberation of four million African American slaves, 
and the ratification of three Constitutional amendments that forever 
changed the face of American democracy. S. 1838 is mindful of this 
reality as it directs the Commission to recognize ``the experiences and 
points of view of all people affected by the Civil War,'' and provides 
for the development of ``programs, projects, and activities on the 
Civil War that have lasting educational value.''
    As S. 1838 acknowledges, the military aspects of the Civil War are 
important events to commemorate. It is equally important, however, as 
we prepare to reflect on the war from the vantage point of a-century-
and-a-half later, that we explore the causes of the conflict to 
understand better why the democratic framework of the country failed to 
resolve the sectional issues short of war. Likewise, we would be doing 
a disservice to those who fought and fell, if the Sesquicentennial did 
not fully examine and reflect upon the consequences of the Civil War 
including not only the Reconstruction era and its aftermath, but also 
the subsequent constriction of equal rights for African American 
citizens, and the ultimate achievement of those civil rights for the 
descendents of enslaved peoples almost a century later.
    As the country approaches the 150th anniversary of the war, the 
meaning of the Civil War should be explored fully. Its causes and 
consequences, subjects which Congress directed the National Park 
Service to address in its programs and materials beginning in 1999, can 
and must be a major part of the Sesquicentennial. The Sesquicentennial 
should assume the broadest possible approach to remembering and 
commemorating the war. With that in mind, and subject to the concerns 
of the other federal agencies referenced above, the Department would 
recommend the following suggestions for strengthening S. 1838 and 
making its implementation more efficient and effective.
    First, the findings mention specific organizations and places 
important to the Sesquicentennial of the Civil War. It is important to 
remember that the Civil War was a national experience and its 
Sesquicentennial commemoration should likewise represent a broad 
spectrum of the nation. For example, the Virginia Center for Digital 
History (University of Virginia) with its The Valley of the Shadow 
project could contribute much to our understanding of the war. Other 
entities that might logically be considered would include the Center 
for Study of the American South at the University of North Carolina and 
the Center for the Study of Southern Culture at the University of 
Mississippi. We recommend that other scholarly centers and programs be 
acknowledged so that the social, political, and economic aspects of the 
war receive emphasis.
    Second, respecting the importance of the appointments to this 
nationally important commission, we recommend that the bill allow for 
180 days instead of 60 days for the selection of the commission 
members.
    Third, the bill envisions a commission that would include twenty-
seven members. We believe a commission of this size would significantly 
impede the timely selection of its members, diminish its ability to 
work efficiently and effectively, and would be too costly. We recommend 
a smaller commission, with perhaps fifteen or seventeen members. We 
would be glad to work with the committee on language for these proposed 
amendments.
    Establishing a commission, subject to modifications as discussed 
above, to commemorate the sesquicentennial of the Civil War as 
envisioned in S. 1838 would provide the nation an opportunity to 
reflect upon this momentous event within an environment that would be 
inclusive and contemplative. The Department of the Interior and the 
National Park Service stand ready to contribute its resources and 
expertise to this important commemoration. It would enable all 
Americans to reflect anew upon the war, its consequences, and its 
lasting legacies. It would result, we can hope, in greater public 
insight into the war and promote increased awareness of its remarkable 
influence upon our society today.
    This concludes my prepared testimony, Mr. Chairman. I would be 
pleased to answer any questions you or the committee might have.
                                s. 2097
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2097, to authorize the rededication of the 
District of Columbia War Memorial as a National and District of 
Columbia World War I Memorial to honor the sacrifices made by American 
veterans of World War I.
    The Administration appreciates the sponsors' recognition of the 
sacrifices of Americans who served in World War I. This is an important 
era in American history which has been honored through a number of 
monuments throughout the nation. The Administration shares the 
sponsors' sentiment on this subject and would like to continue working 
with the Congress on it.
    However, we feel that it would be premature to designate the 
District of Columbia War Memorial (Memorial) as the National and 
District of Columbia World War I Memorial. There has not been any study 
authorized or conducted to determine which of the various World War I 
Memorials in the United States would be best suited to be named as the 
single or official National World War I Memorial. Further, the bill 
undermines several significant provisions of the Commemorative Works 
Act. Therefore, the Department cannot support S. 2097.
    S. 2097 would authorize the World War I Memorial Foundation 
(Foundation) to establish a commemorative work rededicating the 
existing District of Columbia War Memorial as a National and District 
of Columbia World War I Memorial by restoring the Memorial and adding 
an appropriate sculptural or other commemorative element.
    The District of Columbia War Memorial was authorized by Congress on 
June 7, 1924, to commemorate the citizens of the District of Columbia 
who served in World War I. The Memorial was funded by both 
organizations and citizens of the District of Columbia. Construction of 
the Memorial began in the spring of 1931 and was dedicated by President 
Herbert Hoover on November 11, 1931. It was the first war memorial to 
be erected in West Potomac Park and remains the only local District 
memorial on the National Mall. The Memorial is a contributing structure 
in East and West Potomac Parks entry in the National Register of 
Historic Places.
    Designed by Washington architect Frederick H. Brooke, with Horace 
W. Peaslee and Nathan C. Wyeth as associate architects, inscribed on 
the base of the Memorial are the names of the 499 District of Columbia 
citizens who lost their lives in the war. The Memorial was designed to 
be used as a bandstand and is large enough to hold an 80-member band. 
Concerts were held there until May 1, 1960. Today's visitors are likely 
those who are there for its peaceful and contemplative setting.
    The Department concurs with the findings of the National Capital 
Memorial Advisory Commission (NCMAC) and the American Battle Monuments 
Commission (ABMC) that adding a National World War I Memorial near the 
District of Columbia War Memorial would allow a new memorial into the 
Reserve as well as encroach upon the existing Memorial, either of which 
would be violations of the Commemorative Works Act Moreover, the 
sculptural or commemorative elements that S. 2097 proposes would so 
alter the existing District of Columbia War Memorial--in both its 
purpose and design--that the result would be, in effect, the creation 
of a new memorial.
    This legislation exempts this proposal from key provisions which 
are at the heart of the Commemorative Works Act. Section 8908 of the 
Act precludes the addition of new memorials in the Reserve, the great 
cross-axis of the Mall, which generally extends from the United States 
Capitol to the Lincoln Memorial, and from the White House to the 
Jefferson Memorial. Section 8905 of the Act requires the site and 
design for a new memorial be developed in a public process, first 
obtaining the advice of the National Capital Memorial Advisory 
Commission, and then obtaining approvals by the National Capital 
Planning Commission and the U.S. Commission of Fine Arts.
    Veterans of World War I are honored at the General John J. Pershing 
Park, which is a national World War I Memorial on Pennsylvania Avenue. 
Pershing Park, located in the center of Pennsylvania Avenue, between 
14th and 15th Streets, was built by the Pennsylvania Avenue Development 
Corporation and includes a statue of General Pershing, as well as 
artwork detailing the major battles in World War I that involved U.S. 
troops. This commemorative work represents all who served in that 
conflict. Quotations on this existing World War I Veterans Memorial 
include General Pershing's tribute to the officers and men of the 
American Expeditionary Forces of World War I and a commemoration of 
those who served in the United States Navy in World War I. Veterans of 
World War I are also honored on the Mall near the White House by the 
1st Division and 2nd Division Memorials.
    The Department appreciates the interest in improving the conditions 
at the District of Columbia War Memorial. While, as with other 
memorials, this memorial receives routine maintenance, the National 
Park Service has recognized it needs comprehensive attention. Open 
mortar joints and failed metal flashings have allowed water 
infiltration into the brick, terra cotta tile, and marble. Marble 
displacement, spalling, and cracking have also occurred.
    The character of the Memorial's grounds has also changed. The 
Memorial grove is now a mix of hardwoods, evergreens, understory 
plantings, and non-native plants, altering the intended character of 
the open grove. The bluestone paving is severely deteriorated and 
broken from vehicular use.
    As a result of the American Recovery and Reinvestment Act, $7.3 
million has been set aside for an extensive three-stage project to 
restore and rehabilitate the Memorial and grounds. First, stone 
conservators are conducting tests to determine the best methods for 
cleaning and removing general and biological soiling, stains, and old 
paint to restore the Memorial to an appearance consistent with the 
structure's age and material character. Corrections to the built-in 
gutter and drainage systems will also be made to help eliminate 
moisture infiltration and the associated staining and spalling.
    Second, the project will restore the original planting plan, re-
establishing the 50-foot open lawn around the Memorial, set within a 
grove of trees.
    Third, the current deteriorated condition of the surrounding stone 
plaza and walkways will be rehabilitated with thicker, more durable 
stone paving and the walkways widened from eight feet to ten feet to 
address contemporary use.
    The National Park Service received approval for this restoration 
and rehabilitation project from the U.S. Commission of Fine Arts on 
September 17, 2009, and from the National Capital Planning Commission 
on September 24, 2009. Final design, as well as final approvals from 
both Commissions, is expected to be complete this spring, with the 
rehabilitation expected to be complete by September 30, 2012.
    As the District of Columbia World War I Memorial is dedicated to, 
and was built with funds from the citizens of the District of Columbia, 
any modification to rededicate it and turn this local memorial into a 
national memorial would run counter to the letter and spirit of its 
original authorization and to the intent of the Commemorative Works 
Act. Rather than making exceptions to the Commemorative Works Act and 
setting this precedent--superimposing a new memorial over an existing 
one, the Department believes that greater recognition could be given to 
studying opportunities to improve upon the national World War I 
Memorial in Pershing Park, in accordance with the Commemorative Works 
Act. . The Department believes that the memorial in Pershing Park could 
be given an even greater national stature, without impinging on the 
Commemorative Works Act.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or any other members of the 
subcommittee may have.
                                s. 2722
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2722, to authorize the Secretary of the Interior 
to conduct a special resource study to determine the suitability and 
feasibility of adding the Heart Mountain Relocation Center, in the 
State of Wyoming, as a unit of the National Park System.
    The Department supports S. 2722. However, we feel that priority 
should be given to the 49 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and the 
National Wild and Scenic River System that have not yet been 
transmitted to Congress.
    S. 2722 would authorize the Secretary of the Interior (Secretary) 
to conduct a special resource study to determine the suitability and 
feasibility of designating the Heart Mountain Relocation Center as a 
unit of the National Park System. The study would also consider other 
alternatives for the preservation, protection and interpretation of the 
site by federal, State, or local governmental entities, or private and 
nonprofit organizations. The bill also directs the Secretary to 
identify any potential impacts to private landowners if the site is 
designated as a unit of the National Park System and specifies that the 
Secretary, through the study process, shall consult with interested 
federal, State, or local governmental entities, federally recognized 
Indian tribes, private and nonprofit organizations, and owners of 
private property that may be affected by any designation. Not later 
than three years after funds are made available, the Secretary is 
directed to submit the results and recommendations of the study to 
Congress. We estimate that this study will cost approximately $240,000.
    Located in northwest Wyoming, in the Shoshone River Valley, the 
Heart Mountain Relocation Center is one of 10 relocation centers 
established by the U.S. military to incarcerate Japanese Americans 
during World War II. The Center opened on August 11, 1942, and operated 
for 39 months, closing on November 10, 1945. At its peak, Heart 
Mountain contained 10,767 Japanese Americans, nearly all of whom were 
former residents of California, Oregon, and Washington, and two-thirds 
of whom were United States citizens.
    The site tells the story of a group of American citizens whose 
constitutional rights were abrogated during a time when our nation was 
at war. Heart Mountain is also directly associated with one of the 
largest single draft resistance movements in United States history. To 
protest the confinement of their families, 315 Japanese Americans from 
all 10 relocation centers were imprisoned for resisting induction into 
the military. Heart Mountain had the highest rate of resistance with 85 
men imprisoned for their resistance to the draft.
    The Heart Mountain Relocation Center originally encompassed 21,521 
acres. However, the center's core developed area, which included the 
residential and administrative areas, contained approximately 740 
acres.
    Jointly managed by the Bureau of Reclamation and the Heart 
Mountain, Wyoming Foundation, the current Heart Mountain National 
Historic Landmark contains 124 acres with the remaining parts of the 
area privately owned. The Bureau of Reclamation owns and administers 74 
acres, which includes the site of the original hospital complex and a 
portion of the administrative complex. The Heart Mountain, Wyoming 
Foundation owns 50 acres, which includes the relocation center's 
military police compound. The Foundation is currently engaged in a 
significant fundraising campaign to construct an 11,000 square foot 
Interpretive Learning Center at the site. To date, nearly one-half of 
the needed funds have been raised.
    Although, as a nation, we are not proud of what happened at the 
Heart Mountain Relocation Center and the other nine detention sites 
where Japanese Americans were incarcerated during World War II, such 
sites allow us to learn from our history and remind us of how far we 
have come. The designation of the Heart Mountain Relocation Center as a 
National Historic Landmark has brought increased public recognition and 
awareness of the site. However, this designation does not guarantee 
additional safeguards or protection of the site. The special resource 
study process would allow all interested parties to comment on ways to 
preserve and allow for visitor enjoyment of the Heart Mountain 
Relocation Center.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittee 
may have.
                                s. 2726
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2726, a bill to modify the boundary of the Minuteman Missile National 
Historic Site in the State of South Dakota.
    The Department supports S. 2726 with some technical amendments 
included at the end of this statement.
    S. 2726 would authorize the Secretary to transfer 25 acres of 
Buffalo Gap National Grasslands from the U.S. Forest Service to 
Minuteman Missile National Historic Site in Philip, South Dakota, to 
establish a visitor facility and administrative site. The new facility 
would be located north of exit 131 on Interstate 90 in Jackson County, 
South Dakota. Minuteman Missile's enabling legislation states, ``On a 
determination by the Secretary of the appropriate location for a 
visitor facility and administrative site, the boundary of the historic 
site shall be modified to include the selected site.'' The enabling 
legislation also included a map of the visitor center site indicating 
that the proposed area would be 10 acres in size. Later planning 
indicated that a minimum size for the visitor center site would require 
25 acres. National Park Service and U.S. Forest Service personnel, in 
consultation with our respective lawyers, have discussed that in view 
of the increase in acreage, it would be appropriate to provide for that 
increase in new legislation. There would be no cost involved in this 
land transfer.
    The U.S. Forest Service (Buffalo Gap National Grassland) is in 
agreement with the recommended land transfer and has provided Minuteman 
Missile NHS with an outline of the land transfer process. The National 
Park Service's Midwest regional architects and engineers conducted an 
on-site visit in March 2009 with the Minuteman Missile NHS staff to 
determine the number of acres necessary for the land transfer. The 
National Grassland representatives met with representatives from the 
National Park Service to discuss the proposed land involved in the 
transfer and the U.S. Forest Service has agreed to the transfer of 25 
acres. We note that the U.S. Forest Service also has identified the 
Bankhead Jones Farm Tenant Act of 1937 as another possible vehicle for 
this transfer.
    Public Law 106-115 established the Minuteman Missile National 
Historic Site. The General Management Plan/Environmental Impact 
Statement (GMP/EIS) scoping began in 2001 and the record of decision 
was signed on July 2, 2009. The GMP's preferred alternative included 
the development of a visitor center/administrative facility and a land 
transfer from the U.S. Forest Service to the National Park Service for 
the site of the facility. The GMP recommended the preferred location at 
I-90 South Dakota Exit 131 with ``up to'' 25 acres for the complete 
facility.
    The estimated cost to build the visitor center and administrative 
site is $4.7 million, and the estimated cost to annual operate and 
maintain both facilities would be approximately $750,000. All funds 
would be subject to NPS priorities and the availability of 
appropriations.
    The transfer between the National Park Service and the U.S. Forest 
Service would be conducted in accordance with applicable laws, 
regulations, and policies.
    Mr. Chairman, this concludes my testimony. I look forward to 
working with the Committee on these amendments and other technical 
issues. I am prepared to answer any questions from members of the 
Committee.
Proposed amendments to S. 2726, the Minuteman Missile National Historic 
        Site Boundary Modification Act
          Page 2, line 2, by striking `` respectively; and '' and 
        inserting ``respectively;''
          Page 2, line 6, by inserting ``also'' after `` historic site 
        ''.
          Page 2, line 18, by striking `` 2009 ' . '' and inserting `` 
        2009 '; and ''
          Page 2, after line 18, by inserting

           `` (3) in section (3)(a)(3), as redesignated by paragraph 
        (1), by striking `` (4) AVAILABILITY OF MAP.--The map described 
        in paragraph (2)'' and inserting `` (4) AVAILABILITY OF MAPS.--
        The maps described in paragraphs (2) and (3) ''
          ----(4) in section (3)(e)(1), by striking ``Except as 
        provided in paragraph (2)'' and inserting ``Except as provided 
        in paragraphs (2) and (3)''.
          ----(5) in section (3)(e), by adding a new paragraph (3) as 
        follows:

          (3) The Secretary of Agriculture shall transfer 
        administrative jurisdiction over the lands described in 
        paragraph 3(a)(3) to the Secretary, and shall modify the 
        boundaries of the Buffalo Gap National Grassland to exclude the 
        transferred lands from the grassland boundaries. As soon as 
        practicable after the transfer, the Secretary shall prepare a 
        map and a legal description of the lands described herein, 
        which shall be on file and available for public inspection in 
        the appropriate offices of the National Park Service.
                                s. 2738
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2738, a bill to authorize the National Mall 
Liberty Fund D.C. to establish a memorial on federal land in the 
District of Columbia to honor free persons and slaves who fought for 
independence, liberty, and justice for all during the American 
Revolution.
    The Department supports S. 2738 if amended to conform to the 
principles, processes, and requirements set forth in the Commemorative 
Works Act, which has successfully guided the process for establishing 
monuments in the Nation's Capital since it was enacted in 1986 and as 
amended since that time. We also recommend that one technical 
correction be made to a map reference in the bill.
    The bill would authorize the establishment of a memorial on federal 
land in the District of Columbia to recognize and commemorate the 
contributions of 5,000 African Americans who served as soldiers and 
sailors or provided civilian assistance during the American 
Revolutionary War. The bill prohibits the use of federal funds to 
establish the memorial, directs that the memorial be established 
according to the Commemorative Works Act, and repeals two laws for the 
authorization and site selection of a similar memorial proposal that 
expired.
    In 1986, Congress enacted the Commemorative Works Act to guide the 
process for establishing memorials in the Nation's Capital. Since its 
enactment, the Act has played an important role in ensuring that 
memorials in the Nation's Capital are erected on the most appropriate 
sites and are of a caliber of design that is worthy of their 
historically significant subjects. The Act was amended in 2003 to, 
among other things, provide for establishment of a Reserve where no 
additional memorials may be located.
    While S. 2738 states that the memorial shall be established in 
accordance with the Commemorative Works Act, the bill contravenes a 
critical requirement of the Commemorative Works Act by pre-selecting 
Area I as the site for this memorial.
    Area I is located within the Monumental Core of the Nation's 
Capital extending around the Capitol Reflecting Pool to the eastern 
boundary of Arlington National Cemetery and along the Virginia 
shoreline. Area I excludes the Reserve, the great cross-axis of the 
Mall, which generally extends from the United States Capitol to the 
Lincoln Memorial, and from the White House to the Jefferson Memorial. 
Congress, in the Commemorative Works Act, reserved Area I for subjects 
determined to be of preeminent and lasting historic significance to the 
Nation and it established a process for making this determination which 
has worked well for over 20 years. Through this process, a new memorial 
may be located in Area I only if the Secretary determines, after 
consulting with the National Capital Memorial Advisory Commission, 
which holds public meetings, that the memorial's subject warrants 
location in Area I and recommends it to Congress. If Congress agrees 
with the recommendation, it enacts a law within 150 days approving the 
location. As currently written, S. 2738 bypasses this important 
process.
    Following the Commemorative Works Act, in the Department's view, 
would not hinder the Liberty Memorial Foundation in its ability to 
establish this memorial. In fact, if it obtains an Area I designation 
through this process, it would be granted an additional seven years to 
complete the memorial, for a total of 14 years. This change was made by 
Congress when it amended the Commemorative Works Act in 2003, and as a 
result sponsors no longer need to fear that seeking an Area I 
designation might cost them their authority to establish the memorial 
at all.
    We also would note out that S. 2738 makes no provisions for the 
disposition of monies raised in excess of funds needed for the 
establishment of the memorial or to hold in reserve the amount 
available should the authority to establish the memorial expire before 
completion. The Department recommends that the bill be amended to 
clarify the disposition of these funds.
    The Department also notes that the bill references the 1986 map, 
which Congress amended in 2003 when it changed the boundaries of Area I 
and created the Reserve. The 1986 map is no longer valid. We recommend 
that the bill be amended to reference the revised map, numbered 869/
86501B and dated June 24, 2003.
    The Department reiterates our support of the establishment of a 
memorial in the Nation's Capital that recognizes and commemorates the 
contributions of African Americans who fought for independence, liberty 
and justice during the Revolutionary War. We look forward to the 
opportunity to work with the subcommittee to develop language that 
would provide for such authorization in a manner consistent with the 
principles, processes, and requirements set forth by existing 
authorities.
    Mr. Chairman, that concludes my prepared testimony, I would be glad 
to answer any questions that you or other members of the subcommittee 
may have.
                               h.r. 3689
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 3689, a bill to provide for an extension of 
the legislative authority of the Vietnam Veterans Memorial Fund, Inc. 
(the Fund) to establish a Vietnam Veterans Memorial visitor center, and 
for other purposes.
    The Department supports H.R. 3689 as passed by the House.
    The visitor center was authorized by Public Law 108-126, signed on 
November 17, 2003. Following site analysis and the completion of an 
environmental assessment, the visitor center was approved to be located 
on the NPS proposed site on the grounds of the Lincoln Memorial, 
bounded by Constitution Avenue, Henry Bacon Drive, Lincoln Memorial 
Circle, and 23rd Street, N.W., so long as certain mitigation set forth 
in design standards developed jointly by the National Capital Planning 
Commission (NCPC) and the U.S. Commission of Fine Arts (CFA) are met. 
To protect the sensitive landscape of the site, which includes views to 
and from the Lincoln Memorial and the Vietnam Veterans Memorial, the 
design team is responding to these critical design standards and 
criteria. The criteria have been helpful to move this important 
commemorative work forward while minimizing potential impacts to the 
surrounding views and nearby memorials. In addition to public 
consultation under the National Historic Preservation Act (NHPA), the 
Commemorative Works Act requires an important series of reviews and 
approvals by NCPC and CFA. To meet the challenges associated with 
designing this project on such a sensitive and highly visible site, and 
the legislative requirement that it be located underground, the NPS and 
the Fund have made design refinements as needed during this process.
    We are pleased to report that significant progress has been made 
gaining approvals for the design. Furthermore, the NPS believes that 
the design will be fully approved in a timely fashion and that the 
visitor center can be completed and open to the public within the 
additional four years that H.R. 3689 would allow. Without the proposed 
extension, the Fund's current authority to establish this visitor 
center will expire on November 17, 2010.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

    Senator Udall. Thank you, Ms. Stevenson.
    I will recognize myself for a series of questions.
    Your testimony states that the administration believes that 
the designation of a World War I memorial at this time is 
premature, since there hasn't been a study yet. Do you have an 
estimate as to how long it would take and what it would cost?
    Ms. Stevenson. We ordinarily testify that between $200- and 
$300,000 is required for such a study and that it takes 
approximately 3 years.
    Senator Udall. Thank you for that clarification.
    As you know, the statue in Pershing Park is considered to 
be a World War I memorial. The cross in the Mohave National 
Preserve has been designated as a National Memorial 
commemorating World War I, as well. Do you think there should 
be a single official national World War I memorial, or whether 
it makes sense to have multiple recognized memorials?
    Ms. Stevenson. I believe we'll defer that answer to the 
Congress.
    Senator Udall. Thank you for that opportunity.
    [Laughter.]
    Senator Udall. My understanding is the Liberty Memorial in 
Kansas City is privately owned. Do you have any concerns with 
designating a private facility as a national memorial?
    Ms. Stevenson. That would depend on how the designation was 
written. We have other private buildings that are units in the 
National Park System, and agreements have been worked out.
    Senator Udall. You mentioned in your testimony that $7.3 
million from the American Recovery and Reinvestment Act is 
available to restore the District of Columbia War Memorial. Do 
you know if these funds are sufficient to restore the memorial, 
or would additional funds be necessary?
    Ms. Stevenson. May I ask Mr. May to assist me with that 
question?
    Senator Udall. Of course.
    Mr. May, join us at the witness table and----
    Mr. May. Thank you very much----
    Senator Udall. Would you give your name and title, for the 
record, please.
    Mr. May. Certainly.
    Senator Udall. Thank you.
    Mr. May. Peter May, Associate Regional Director for Lands, 
Resources, and Planning for the National Capital Region of the 
National Parks Service.
    Senator Udall. Thank you, Mr. May. You're recognized.
    Mr. May. Thank you.
    We do believe that we have sufficient funds to complete the 
restoration of the DC World War I Memorial.
    Senator Udall. Thank you.
    Feel free to continue to sit at the witness table.
    Ms. Stevenson, let me turn to World War I and Civil War 
Commissions. With respect to those two bills authorizing 
Federal commissions to commemorate the anniversaries of the 
Civil War and World War I, just to clarify for the record, the 
administration supports the creation of both commissions, but 
wants to modify the way in which commission members are 
appointed in order to avoid appointments cause--clause 
conflicts. Is that correct?
    Ms. Stevenson. That is as we understand it. The Justice 
Department is the one that has raised that objection. So, it 
will be they who deal with you all.
    Senator Udall. Thank you for that clarification.
    Let me move to the Black Revolutionary War Patriots 
Memorial. That is S. 2738, which would a be a new authorization 
for the Black Revolutionary War Patriots Memorial. You object 
to a provision in the bill which finds that the subject matter 
of the proposed memorial is of preeminent and lasting 
significance to the United States, as required under the 
Commemorative Works Act. Given that the Secretary of the 
Interior and Congress has already made that determination for 
the previously authorized memorial, and since the subject of 
the new memorial is identical to the previously authorized one, 
why does the Park Service believe it's a problem to acknowledge 
that significance in this legislation?
    Ms. Stevenson. Mr. May.
    Senator Udall. Mr. May, you're recognized.
    Mr. May. Thank you.
    On a certain level, this is a matter of principle in the 
execution of the Commemorative Works Act. We believe that the 
Congress very wisely set a specific process for establishing 
when something is worthy of being in Area 1. We'd like to see 
that confirmed at this point for this memorial.
    Senator Udall. Thank you for that clarification.
    I have no further questions.
    I know Senator Burr, because of the busy nature of this 
week, and this day in particular, has been unable to join us 
immediately. He may well have questions for you, and I know 
you'll be willing to----
    Ms. Stevenson. I'd be delighted to answer----
    Senator Udall [continuing]. Answer those questions.
    Thank you for taking the time to----
    Ms. Stevenson. Thank you, Senator.
    Senator Udall [continuing]. Come up to the Hill. We will 
see you again soon, I'm sure.
    Ms. Stevenson. Thank you, Mr. Chairman.
    Senator Udall. As Ms. Stevenson, Mr. May depart, I'd ask 
the next panel to take your seats at the table, and we'll turn 
to your testimony.
    [Pause.]
    Senator Udall. Thank you. Good afternoon, to you panel 
members that have joined us.
    I'd like to turn to your testimony with dispatch. So, what 
I'll do is introduce each of you in turn, and I'll start with 
Mr. Alexander, who's on my left, and on the right of those of 
you sitting at the table. Mr. Brian Alexander is president, CEO 
of the National World War I Museum, Kansas City, Missouri.
    Sir, the floor is yours. We'd ask you to keep your 
testimony within a 5-minute timeframe, give or take, and would 
make that same request of all those who are going to testify.
    Welcome, and I look forward to hearing what you have to 
say.

 STATEMENT OF BRIAN ALEXANDER, PRESIDENT & CEO, NATIONAL WORLD 
                 WAR I MUSEUM, KANSAS CITY, MO

    Mr. Alexander. Chairman Udall, thank you for the 
opportunity to present the views of the National World War I 
Museum on H.R. 1849 and S. 70, to designate the Liberty 
Memorial as a National World War I Memorial and to establish a 
World War I Centennial Commission.
    Shortly after the 1918 armistice, citizens in the heart of 
our Nation raised money to build a memorial in Kansas City, 
Missouri, to honor the 4 million American men and women who 
served during the first World War. In 2 weeks, they raised over 
$2 million, roughly the equivalent of $30 million today. The 
1921 Site dedication in Kansas City was attended by the 
military commanders of the five allied nations--France, Italy, 
Great Britain, Belgium, and the United States, represented by 
General John J. Pershing of Missouri. It was at the Liberty 
Memorial that these five leaders met together for the first 
time.
    The Liberty Memorial opened on November 11, 1926. During 
the dedication, President Calvin Coolidge addressed the more 
than 100,000 attendees, saying, ``Erected in memory of those 
who defended their homes and their freedom in the World War, it 
stands for service and all that service implies. Today, I 
return in order that I may place the official sanction of the 
national government upon one of the most elaborate impressive 
memorials that adorn our country.'' Today, we're here to 
request that you formalize President Coolidge's sanction by the 
national government.
    For 8 decades, all American veterans from the Great War 
have been honored by the words carved on the base of the 217-
foot-tall Liberty Memorial tower, ``In honor of those who 
served in the World War in defense of liberty and our 
country.''
    In 1961, former Presidents Truman and Eisenhower, both 
World War I veterans, joined together to rededicate the Liberty 
Memorial, further recognizing it as the national memorial.
    H.R. 760 also establishes a Centennial Commission to 
oversee the 100th anniversary of World War I. While the matter 
is not directly before this committee, the National World War I 
Museum is strongly supportive of this legislation that will 
properly coordinate the national program to commemorate the 
great sacrifices of those who served.
    Through the years, more than 60,000 historical objects from 
the war have been donated to the Liberty Memorial from around 
the world, resulting in the most comprehensive collection of 
World War I materials in our country.
    Our efforts were greatly enhanced with the massive 
expansion of a new museum built directly beneath the Liberty 
Memorial. In 2004, the 108th Congress enacted legislation 
designating the museum as the National World War I Museum. The 
new state-of-the-art museum opened its doors to critical 
acclaim in 2006. That same year, the Liberty Memorial was also 
designated by the Department of Interior as a National Historic 
Landmark.
    Since the 2006 grand opening, more than a million guests 
have visited the 80,000-square-foot complex and 47-acre 
grounds, including more than 55,000 school students.
    For 83 years, the Liberty Memorial has honored all those 
who served this country in the war. Since then, American 
soldiers, on their way to subsequent conflicts, have visited 
the memorial to honor those who came before them. As an 
example, General David Petreus toured the museum shortly before 
his deployment to Iraq. Other dignitaries have acknowledged the 
importance of the memorial and museum through their visits, 
including, among others, Vice President Dick Cheney, former 
Secretary of State Colin Powell, and then-Senator Barack Obama.
    On Veterans Day 2009, the son and grandson of Sergeant 
Alvin York, the most decorated American World War I 
``doughboy,'' were special guests of the museum and memorial. 
We are proud that the York family has endorsed our legislative 
efforts and that members of the York family are here today.
    We are also proud to have two national member-based 
organizations representing nearly 5 million veterans endorse 
our efforts for national memorial designation and the creation 
of a Centennial Commission. I have with me a resolution that 
was passed unanimously by the Veterans of Foreign Wars, as well 
as a letter of support from the American Legion and its 
members. We are grateful that both organizations are 
represented here today.
    We are not asking that ongoing operational funding be tied 
to this designation. Our request is simply to recognize the 
Liberty Memorial as the Nation's official World War I memorial, 
fulfilling President Coolidge's pronouncement in 1926.
    In conclusion, since the end of the war, the American 
people established hundreds of memorials throughout our Nation 
to honor their countrymen who served. Right here in the 
District of Columbia, one can find several memorials dedicated 
to soldiers from this area. We support the renovation of these 
and other memorials. However, the Liberty Memorial stands apart 
from all other efforts, in size, in scale, and in its ongoing 
commitment in interpreting and honoring all veterans from the 
first World War.
    Mr. Chairman, this concludes my statement, and I'm happy to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. Alexander follows:]
Prepared Statement of Brian Alexander, President & CEO, National World 
 War I Museum at Liberty Memorial, Kansas City, MO, on S. 760 and H.R. 
                                  1849
    Chairman Udall, Ranking Member Burr and other members of the 
committee, thank you for the opportunity to present the views of the 
National World War I Museum on H.R. 1849 and S.760 to designate the 
Liberty Memorial as the National World War I Memorial and to establish 
a World War I Centennial Commission.
    The events of 1914 through 1918 profoundly shaped world history and 
forever changed America's role on the world stage. Shortly after the 
1918 Armistice, citizens in the heart of our nation raised money to 
build a memorial in Kansas City, Missouri to honor the four million 
American men and women who served during the First World War.
    In two weeks they raised over two million dollars--the equivalent 
of more than 26 million dollars today. Following this successful 
fundraising drive, a national architectural competition for a monument 
design was held.
    The 1921 site dedication in Kansas City was attended by the 
military commanders of the five Allied nations--France, Italy, Great 
Britain, Belgium and the United States, represented by General John J. 
Pershing of Missouri. It was at the Liberty Memorial that these five 
leaders met together for the first time.
    The Liberty Memorial opened on November 11, 1926. During the 
dedication, President Calvin Coolidge addressed the more than 100,000 
attendees, saying:

          It is with a mingling of sentiments that we come to dedicate 
        this memorial. Erected in memory of those who defended their 
        homes and their freedom in the World War, it stands for service 
        and all that service implies. Today I return . . . in order 
        that I may place the official sanction of the national 
        government upon one of the most elaborate and impressive 
        memorials that adorn our country.

    Today we are here to request that you formalize President 
Coolidge's official sanction of the national government. For eight 
decades all American veterans from the Great War have been honored by 
the words carved on the limestone base of the 217-foot tall Liberty 
Memorial Tower--``In Honor of Those Who Served in the World War in 
Defense of Liberty and Our Country.''
    In 1961 former Presidents Truman and Eisenhower, both World War I 
veterans, joined together to rededicate the Liberty Memorial--further 
recognizing it as the national memorial.
    H.R. 760 also establishes a Centennial Commission to prepare for 
and oversee the 100th anniversary of World War I. While this matter is 
not directly before this committee, the National World War I Museum is 
strongly supportive of this legislation that will properly coordinate a 
national program to commemorate the great sacrifices of those who 
served by making available the vast resources of the Museum.
    Through the years, more than 60,000 historical objects from the war 
have been donated to the Liberty Memorial from around the world--
resulting in the most comprehensive collection of World War I materials 
in our country.
    Our ability to share the stories and honor those who served in the 
First World War was greatly enhanced with the massive expansion of a 
new museum built directly beneath the Liberty Memorial. In 2004 the 
108th Congress enacted legislation designating the museum as the 
National World War I Museum. The new state-of-the-art Museum opened its 
doors to critical acclaim in 2006. That same year, the Liberty Memorial 
was also designated by the Department of the Interior as a National 
Historic Landmark.
    Since the 2006 grand opening, more than a million guests have 
visited the museum and its historic grounds including more than 55,000 
students on school sponsored field trips.
    For 83 years, the Liberty Memorial has honored all those who served 
this country in the First World War. Since then, American soldiers on 
their way to subsequent conflicts have visited the memorial to honor 
those who came before them. As an example, General David Petraeus 
toured the Museum shortly before his deployment to Iraq.
    Other dignitaries have acknowledged the importance of the Memorial 
and Museum through their visits including Vice President Dick Cheney, 
former Secretary of State General Colin Powell and then Senator Barack 
Obama.
    On Veterans Day 2009, the son and grandson of Sergeant Alvin York, 
the most decorated American World War I doughboy, were special guests 
of the Museum and Memorial. We are proud that the York family has 
endorsed our legislative efforts, and that members of the York family 
are here today. As the Centennial approaches and world attention 
focuses on this event, other family descendants, historians and 
organizations throughout the world are turning to us to help in their 
remembrance.
    We are proud to have two national member-based organizations, 
representing nearly five million veterans, endorse our efforts for 
National Memorial designation and the creation of a Centennial 
Commission. I have with me a resolution to this effect that was passed 
unanimously at the Veterans of Foreign Wars national convention, as 
well as a letter of support from the American Legion and its members, 
who also formally endorsed our proposed legislation.* We are grateful 
that both organizations are represented here today.
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    I ask unanimous consent that these letters and the letter from the 
York family be included in their entirety along with my full statement.
    We are not asking that ongoing operational funding be tied to the 
designation as national memorial. Our request is to simply recognize 
the Liberty Memorial as the nation's official World War I Memorial--
fulfilling President Coolidge's pronouncement in 1926.
    In conclusion, since the guns fell silent on November 11, 1918, the 
American people established hundreds of memorials throughout our nation 
to honor their countrymen who served in the Great War. Right here in 
the District of Columbia one can find several memorials dedicated to 
soldiers from this area. However, the Liberty Memorial stands apart 
from all other efforts--in size, in scale and in our ongoing commitment 
in honoring and interpreting this event.
    For more than 80 years, the Liberty Memorial has served as the de 
facto national memorial. The grandeur of the Liberty Memorial combined 
with nearly a century of honoring ALL United States veterans from the 
First World War positions the Memorial uniquely as the national symbol 
for World War I.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or any members of the subcommittee may have.
                    Attachment.--Additional Comment
   national world war i museum at liberty memorial funding structure
    The 2009 operating budget for the National World War I Museum at 
Liberty Memorialas $2,802,250. The Museum is able to fulfill its 
mission through various revenue streams which include earned income, a 
city subsidy and philanthropic contributions.
                       earned income (admission)
    An admission fee is charged to each guest which allows access to 
the view the galleries and to ride the Tower elevator. As the largest 
revenue generator for the Museum, the admission revenue equals 32% of 
the Museum's budget. Guests ages 12 to 64 pay $10 to see the National 
World War I Museum and the view from the top of the Tower. The Museum 
does not charge admission for active duty military or career retired 
military.
    It is important to understand that the Museum does not charge a fee 
to view the Liberty Memorial. Visitors can view the 217-foot Liberty 
Memorial Tower, the Guardian Spirits, and symbolic sphinxes for free 
daily from dawn to dusk. Tens of thousands of guests visit the Memorial 
grounds annually without paying an admission fee.
                         earned income (other)
    Earned income from other sources, which makes up another 27% of the 
Museum's revenue, includes Museum Store sales; Over There Cafe sales; 
Walk of Honor brick sales; and rental events.
    The Museum Store features a selection of WWI treasures ranging from 
vintage t-shirts to military collectibles. The goal of the Museum Store 
is to inform, educate and extend the visitor's experience by offering 
quality products and excellent service.
    At the Over There Cafe, guests dine surrounded by WWI-themed decor 
featuring the flags of the Allied and Central Powers, a poppy field 
mural and music of the era.
    The Walk of Honor currently has more than 7,500 bricks bought to 
recognize individuals and organizations. The Walk of Honor is divided 
into three sections. 1) a section dedicated solely to those who served 
in World War I, 2) a section for veterans of any military service and 
3) a section to honor civilian friends, family or organizations.
    Each year, more than 200 private events are held on Museum grounds. 
Revenue is earned from both facility rentals and catering fees.
                              city funding
    The National World War I Museum at Liberty Memorial and surrounding 
47 acres are owned by the City of Kansas City. The Museum is managed by 
the nonprofit Liberty Memorial Association through a long-term contract 
with the City of Kansas City. In 2009, the Museum received $625,000 
from the City of Kansas City as part of a contractual subsidy and 
maintenance endowment, which equals 22% of the Museum's revenue.*
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
                      philanthropic contributions
    Philanthropic gifts from individuals, corporations and foundations 
currently make up 17.5% of the Museums budget. Revenue in this area 
comes from individual gifts, memberships, grants, sponsorships, planned 
gifts and commemorative gifts.
    The Museum successfully completed a We the People challenge grant 
from the National Endowment for the Humanities in 2009. This 
prestigious grant establishes two important endowments. The Education 
Endowment will support programming that strengthens and improves the 
visitor's understanding of World War I history and the Acquisitions 
Endowment will fund the purchase of significant World War I artifacts. 
Under the terms of the grant, the National World War I Museum raised 
$1.5 million with matching money of $500,000. Both the Education 
Endowment and the Acquisitions Endowment are restricted funds which can 
only be used to support their respective missions.
    Other major grants have been awarded to the Museum by the Ewing 
Marion Kauffman Foundation, Save America's Treasures, U.S. Department 
of Education, and U.S. Department of Housing and Urban Development.

    Senator Udall. Thank you, Mr. Alexander, for that 
testimony.
    I, too, want to offer my welcome to the York family. I 
think every American is familiar with that phenomenal story 
from World War I. So, welcome to your Nation's capital, to the 
York family.
    We've been joined by Mr. Maurice A. Barboza, who's the 
founder and CEO of the National Mall Liberty Fund DC, based 
here in Washington, DC.
    Mr. Barboza, welcome, and the floor is yours.

 STATEMENT OF MAURICE A. BARBOZA, FOUNDER & CEO, NATIONAL MALL 
                       LIBERTY FUND D.C.

    Mr. Barboza. Thank you very much, Chairman Udall and 
members of----
    Senator Udall. If you'll turn your mic on. I didn't set a 
very good example, starting this panel, but----
    Mr. Barboza. Thank you.
    Thank you for inviting me to testify on the National 
Liberty Memorial Act. We commend the sponsors, Senator Chris 
Dodd and Senator Charles Grassley, for 25 years of fidelity to 
the project.
    I'm the founder and CEO of the organization. Our purpose is 
to create a memorial to the unique circumstances and 
aspirations of African American soldiers, sailors, patriots, 
and freedom-seekers of the American Revolutionary War. This is 
not a war memorial. These men and women strove to become ``We 
the People,'' and to have children and grandchildren who were 
secure in their own skin and free to give of themselves to the 
Union.
    What stirred the slave at sunrise, could instruct Americans 
today. In 1988, Congress approved, and President Reagan signed, 
a bill setting aside the land on the mall. The history was 
declared a preeminent historical and lasting significance. 
However, in 2005, 2 years after the moratorium was approved, 
the separate authorization of the sponsor expired and the site 
became unavailable. Although the memorial was not built, 
discoveries inspired by the exposure are meaningful and 
mounting. The long delay is revealing itself as a building 
block instead of a missed opportunity.
    Emerson said, ``Liberty is a slow fruit. It is made 
difficult because freedom is the perfection of man.'' Approval 
of this bill would reaffirm the worthiness of the history. The 
National Park Service and the new organization could then 
identify potential sites in Area 1, outside of the reserve.
    The Sons of the American Revolution estimates that as many 
as 10,000 African Americans fought for independence, serving 
largely in integrated units. They were killed, captured, and 
wounded. Slaves and free persons volunteered, in hopes of 
winning liberty and citizenship. Afterward, they lived 
exemplary lives, nurturing families and liberty. Some founded 
churches and self-help groups; these eventually spawned the 
civil rights movement. Many were farmers and artisans, others 
become preachers and entrepreneurs. A few even voted. Tens of 
thousands of slaves were emboldened to run away or petition for 
liberty. Some bartered chains for muskets. These declarations 
of independence are footprinted on roads, backwoods, and 
newspaper ads seeking to apprehend them in their tracks.
    Books and scholarship about their tenacity have blossomed 
since 1986. Records and the spirits abiding within them have 
been unshackled; they're free and discoverable. Last year, the 
names of over 5,000 were released. ``Forgotten Patriots'' 
contains proof of their military service, and clues to spouses 
and children. Asa Snelling, Henry Bakeman, and Sergeant Isaac 
Brown are among dozens of patriots reunited with their 
families. Absalom Martin, a North Carolina soldier is one of 
them. Any one of your States' citizens could be a descendant of 
the 10,000. Heirs to this legacy could number in the millions. 
Hundreds more will discover their inheritance over the next 
decade. The coming together of ancestor and descendant 
liberates both.
    I've seen women organize commemorations to convey ancient 
recollections to the living. I have seen Black and white 
families honor common ancestors and ancestors who knew one 
another. I have seen it bring grown men to tears. In 
Connecticut, Venture Smith and his son, a Revolutionary War 
soldier, is celebrated annually by his family and community. 
Historians, anthropologists, and genealogists will gather 
tomorrow in Hartford for the Documenting Venture Smith 
Conference. Citizens of Montrose, Iowa, celebrate the life of 
Cato Mead, a Connecticut soldier who moved to Lee County and 
died there in 1846. Citizens of Savannah, Georgia, and Haiti 
built a monument to Haitian soldiers who fought there with 
General Pulaski in 1779. Oscar Marion was honored in the 
capital in 2007, near his portrait with General Marion.
    The National Park Service has identified 103 Black soldiers 
at Bunker Hill and many others at other historic battles.
    Next year, the Cato Freedom Project, at Hartwick College in 
New York, will announce the National Freedom Descendants 
Commission. Students are writing papers, searching for 
descendants, and traipsing through woodlands to discover graves 
and ancestral lands. The history is required reading in the 
grade schools of New Jersey. A traveling exhibit, ``Oh, 
Freedom,'' commemorates the State's Black patriots.
    A treasure map of the Nation's birth--cherished principles 
is being redrawn. Americans of all races and points of view are 
finding common identity, common values, and common purpose. The 
day is coming when the spell cast over history by slavery and 
Jim Crow is broken. No longer will that warp the way an 
American sees himself and colors see one another. Lincoln 
cautioned, ``A house divided against itself cannot stand.'' 
Imagine this future memorial as a lighthouse guiding us to 
where all citizens are bound beyond doubt as ``We the People.'' 
In that aim is the preservation of liberty.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Barboza follows:]
 Prepared Statement of Maurice A. Barboza, Founder & CEO, Liberty Fund 
                            D.C., on S. 2738
    Chairman Udall, Senator Burr and members of the Subcommittee, thank 
you for inviting me to testify on S. 2738, the National Liberty 
Memorial Act. We commend the sponsors, Senator Chris Dodd and Senator 
Charles Grassley, for 25 years of fidelity. I am the founder and CEO of 
Liberty Fund D.C.\1\ Our purpose is to create a memorial to the unique 
circumstances and aspirations of African American soldiers, sailors, 
patriots and freedom seekers of the Revolutionary War. Above all, these 
men and women strove to become ``We the People'' and to have children 
and grandchildren who are secure in their own skin and free to give of 
themselves to the union. What stirred the slave at sunrise could 
instruct Americans today.
---------------------------------------------------------------------------
    \1\ This 501(c)(3) non-profit was incorporated in the District of 
Columbia in 2005.
---------------------------------------------------------------------------
    In 1988, Congress approved, and President Reagan signed, a bill 
setting aside land on the Mall. Public Law 100-265, a prerequisite, 
declares the deeds of ``preeminent historical and lasting 
significance.''\2\ However, in 2005, two years after the moratorium was 
approved, the separate authorization of the sponsor expired and the 
site became unavailable.\3\ Although, the memorial was not built, 
discoveries inspired by the exposure are meaningful and mounting. The 
long delay is revealing itself as a building block, instead of a missed 
opportunity. Emerson said, ``liberty is slow fruit. It is never cheap. 
It is made difficult because freedom is the accomplishment and 
perfection of man.'' Approval of S. 2738 would reaffirm the worthiness 
of the history. The National Park Service and the new organization 
could then identify potential sites in Area 1--outside of the Reserve.
---------------------------------------------------------------------------
    \2\ Public Law 100-265, March 1988, declares the history of these 
patriots to be of preeminence: ``. . .slaves and free black persons who 
served as soldiers and sailors or provided civilian assistance during 
the American Revolution and to honor black men, women, and children who 
ran away from slavery or filed petitions with courts and legislatures 
seeking their freedom''.
    \3\ Black Revolutionary War Patriots Memorial, Public Law 99-558, 
October 1986.
---------------------------------------------------------------------------
    The Sons of the American Revolution estimates that as many as 
10,000 African Americans fought for Independence. Serving largely in 
integrated units, they were killed, captured and wounded, from 1775 to 
1783. Slaves and free persons volunteered in the hope of winning 
liberty and citizenship. Afterward, they lived exemplary lives, 
nurturing families and the tree of liberty. Some founded churches and 
self-help groups. These eventually spawned the Civil Rights Movement. 
Many were farmers and artisans; others became preachers and 
entrepreneurs. A few even voted. Tens of thousands of slaves were 
emboldened to run away or petition for liberty. Some bartered chains 
for muskets. These declarations of independence are foot-printed on 
roads, backwoods and newspaper ads seeking to apprehend them in their 
tracks.
    Books and scholarship about their tenacity have blossomed since 
1986. Records, and the spirits abiding within them, have been 
unshackled; they are free and discoverable. Last year, the names of 
over 5,000 were released, after 24 years. Forgotten Patriots\4\ 
contains proof of their military service, residences and clues to 
spouses and children. Asa Snelling, Henry Bakeman and Sergeant Isaac 
Brown are among dozens of patriots reunited with their families. 
Absalom Martin, a North Carolina soldier, is one of them. Any one of 
your state's citizens could be a descendant of the 10,000. Heirs to 
this legacy could number in the millions. Hundreds more will discover 
their inheritance over the next decade. The coming together of ancestor 
and descendant liberates both. I have seen women organize 
commemorations to convey ancient recollections to the living. I have 
seen black and white families honor common ancestors and ancestors who 
knew one another. I have seen it bring grown men to tears.
---------------------------------------------------------------------------
    \4\ Forgotten Patriots, African American and American Indian 
Patriots in the American Revolution, Washington, D.C.: Daughters of the 
American Revolution, 2008 (Required by membership settlement agreement 
of Lena Santos Ferguson, May 1984).
---------------------------------------------------------------------------
    In Connecticut, Venture Smith and his son, a Revolutionary War 
soldier, are celebrated annually by his family and community. 
Historians, anthropologists and genealogists will gather tomorrow in 
Hartford for the Documenting Venture Smith Conference. Citizens of 
Montrose, Iowa, celebrate the life of Cato Mead, a Connecticut soldier, 
who moved to Lee County and died there in 1846. Citizens of Savannah, 
Georgia and Haiti built a monument to Haitian soldiers who fought there 
with Gen. Pulaski in 1779. Oscar Marion was honored in the Capitol near 
his portrait with Gen. Marion. The National Park Service has identified 
103 black soldiers at Bunker Hill.
    In April 2010, the Cato Freedom Project at Hartwick College in New 
York will announce the National Freedom Descendants Commission. 
Students are writing papers, searching for descendants and traipsing 
through woodlands to discover graves and ancestral lands. The history 
is required reading in the grade schools of New Jersey. A traveling 
exhibit, ``Oh Freedom!'', commemorates the state's black patriots. A 
treasure map of the nation's birth and cherished principles is being 
redrawn. Americans of all races and points-of-view are finding common 
identity, common values, and common purpose.\5\
---------------------------------------------------------------------------
    \5\ In March 1984, Congress approved Public Law 98-245 to encourage 
commemorative and educational activities to honor the black patriots. 
President Reagan signed the Act in a ceremony in the Oval Office. This 
precursor to the authority for the Black Revolutionary War Patriots 
Memorial offers thanks to descendants.
---------------------------------------------------------------------------
    The day is coming when the spell cast over history by slavery and 
Jim Crow is broken. No longer will they warp the way an American sees 
himself and colors see one another. Lincoln cautioned, ``a house 
divided against itself cannot stand.'' Imagine this future memorial as 
a lighthouse guiding us to where all citizens are bound beyond doubt as 
``We the people.'' In that aim is the preservation of liberty.

    [Additional materials submitted have been retained in subcommittee 
files.]

    Senator Udall. Thank you, Mr. Barboza, for those powerful 
words.
    We now turn to Mr. Harry G. Robinson III. He's board of 
directors, the Vietnam Veterans Memorial Fund, Washington, DC.
    Mr. Robinson, welcome, the floor is yours.

   STATEMENT OF HARRY G. ROBINSON, III, BOARD OF DIRECTORS, 
                 VIETNAM VETERANS MEMORIAL FUND

    Mr. Robinson. Thank you, Mr. Chairman.
    I'm Harry Robinson, currently appointed as the Silcott 
Chair of Architecture and Dean Emeritus at Howard University.
    I'm joined today by Jan Scruggs, the young man who had the 
idea of The Wall, and actually built it.
    I speak to you today as a member of the Board of Vietnam 
Veterans Memorial fund and as a combat veteran of the war in 
Vietnam, for which I was awarded the Bronze Star and the Purple 
Heart.
    My purpose here today is to support and extension of H.R. 
3689, the authorization to build the Vietnam Veterans Memorial 
Education Center, from the year 2010 to 2014. I offer a special 
perspective on this request. I was twice appointed by the 
President to serve on the U.S. Commission of Fine Arts, served 
as his chair and vice chair of that body. Suffice it to say, I 
understand the requirements of normal flow of approvals for 
projects on the Mall.
    In a--November 2003, Congress passed legislation, 
subsequently signed by the President, authorizing that a 
visitor center be built at or near the Vietnam Veterans 
Memorial. The Memorial Fund starting working on the project 
immediately. By February 2004, we had commissioned a 
comprehensive site study and environmental analysis to 
determine the most suitable site for the Mall--for the center. 
We retained design professionals who cared deeply about the 
National Mall, who had deep involvement in its development. Our 
requirements and theirs were to conduct a study that respected 
and protected the Mall's historic character and national 
heritage.
    Subsequently, the Fund held a national design process to 
choose an architect and an exhibit designer. The selection 
committee chose Polshek Partnership Architects and Ralph 
Appelbaum Associates, a team that had worked together on many 
award-winning projects.
    Supporting this effort, we formed a National Advisory Board 
to develop recommendations about purpose and content. We chose 
a broad range of U.S. citizens for this committee--veterans, 
distinguished former military leaders, authors, journalists, 
educators, and sociologists--who would guide us in the best way 
to tell story of the Vietnam War in the Center.
    We also began meeting with the Federal commissions 
responsible for overseeing all the structures built on the 
National Mall. This is where the delays began. Over the period 
of more than 4 years, the Fund and its consultants were 
subjected to extreme and often unwarranted delays and 
disruptive staff maneuvering, including the 2005 December 
removal of the Education Center from the agenda of NCPC. At 
every turn, the Fund and its consultants and the National Park 
Service cooperated in good faith with the agencies. We 
conducted and paid for every study requested and were 
forthcoming in changes to the concept design. To date, we have 
spent more than $1 million on concept design fees directly 
related to concept design proposals and revisions, and an 
$80,000 environmental study.
    Our response to delays was measured, passed by the House, 
and considered by the Senate, to end delays. It was only at the 
presence of this pending action that the site was approved by 
NCPC, nearly a year and a half from the first meeting with 
those agencies. I should note that the changes to the Memorial 
Fund that we were willing to make have been sufficient, 
including reducing the size of the structure, removing 
skylights, redirecting walkways, and reorienting the building 
on the site. We have also reduced the size of the structure 
significantly.
    Most recently, fortunately, we had a meeting with NCPC and 
CFA together, and we are on track to move forward, with their 
consent.
    This committee, quite appropriately, needs to know why we 
are asking for an extension. Here is one answer: Our good-faith 
efforts to meet the unprecedented demands of the Federal 
commissions have cost us considerable time and money that we 
need to recoup. There's another reason. We are in the middle of 
the worst recession our Nation has experienced in decades. I 
don't have to tell any of you the challenges that every citizen 
is facing, from families trying to make ends meet to small 
businesses trying to survive in tough times.
    But, in the midst of this, there is good news to report. In 
spite of the economy, people believe in this project enough to 
put their money behind it. We have raised more than $3.5 
million in 2009. This includes a $2.5-million pledge that is 
not only the largest individual pledge for the Center, it's the 
largest that the Fund has ever received. These pledges have 
reinvigorated our efforts. We have raised nearly $25 million in 
donations and in-kind gifts, and we estimate that it will take 
85 million to build the Center.
    Momentum for this project is also building because of our 
new corporate chairman, San Antonio Spurs owner, Peter M. Holt, 
who actively pushed the movement forward on all fronts. He is 
joined by a robust leadership that includes seven Governors 
from Texas, Pennsylvania, Virginia, Louisiana, Florida, 
Georgia. We have pledged to gather support for the Center in 
their States. The AFL-CIO and its building construction trades 
department have endorsed this project, as has the VFW, which 
has pledged $1 million. Of importance, it has been determined 
that the construction of this center will generate 200 new 
jobs.
    When Congress passed this bill, authorizing the Center in 
2003, you approved the final language unanimously, in both the 
House and Senate. We ask you to join the House in approving 
H.R. 3689.
    Thank you.
    [The prepared statement of Mr. Robinson follows:]
Prepared Statement of Harry G. Robinson, III, Vietnam Veterans Memorial 
                           Fund, on H.R. 3689
    Mr. Chairman, members of the subcommittee--good afternoon. My name 
is Harry Robinson. I am a trained architect and city planner, currently 
serving as professor of urban design and dean emeritus of Howard 
University. I am also the principal of my own international design 
firm, TRG Consulting.
    I am here today to talk about the Education Center at the Vietnam 
Veterans Memorial, and I offer a unique perspective. Twice I was 
appointed by the president to serve on the Commission of Fine Arts--one 
of the organizations you will be hearing about today. In fact, I was 
CFA's chairman. I am also a long-time member of the board of directors 
of the Vietnam Veterans Memorial Fund, the group that is working with 
the National Park Service to build the Education Center. I am myself a 
Vietnam veteran, having served in the U.S. Army from 1966-68, including 
a tour of duty in Vietnam, where I received the Bronze Star and the 
Purple Heart.
    I stand before you today, wearing all of these hats, to ask that 
you support HR 3689 to extend the authorization deadline for the 
Vietnam Veterans Memorial Education Center for four years--from 2010 to 
2014.
    You are probably wondering why this project needs an extension. I'd 
like to give you some background.
    In November 2003, Congress passed legislation, subsequently signed 
by the president, authorizing that a visitors' center be built ``at or 
near'' the Vietnam Veterans Memorial. The Memorial Fund started working 
on the project immediately. By February 2004, we had commissioned a 
site study and environmental analysis to determine the most suitable 
site for the center. The survey evaluated visitor circulation, 
vegetation, vistas, historic landmarks, sound and visual activity, as 
well as pedestrian and traffic counts. In short, every possible way 
that the visitor center would affect the area around it was evaluated.
    And we chose people who care deeply about the National Mall to 
conduct this study: JC Cummings, the architect of record for the 
Vietnam Veterans Memorial; as well as Henry Arnold and George Dickie, 
who designed Constitution Gardens, where the Vietnam Veterans Memorial 
is located. We were confident that this team would not recommend a site 
that was in any way detrimental to the National Mall--and, indeed, that 
was one of our original stipulations in choosing a site.
    The Memorial Fund also held a national design contest to choose an 
architect and exhibit designer. We formed an Advisory Board to give us 
recommendations about displays. We chose a broad range of Americans for 
this committee: veterans, former military leaders, authors, 
journalists, educators and sociologists who could guide us in the best 
way to tell the story of the Vietnam War in this center.
    We also began meeting with the federal commissions responsible for 
overseeing any new structures built on the National Mall. This is where 
the delays began. Once the results of our site survey were completed, 
we presented the results, along with our recommendation, to the 
National Capital Memorial Advisory Commission. After the first meeting, 
which was held in March 2005, the Commission asked for further study of 
three sites. After the second meeting the following May, the Commission 
gave approval to two sites: the site on Henry Bacon Drive for which we 
ultimately won approval, and a site within the Department of Interior 
South building.
    CFA approved the Henry Bacon Drive site at a September 2005 meeting 
``subject to conditions of architectural development.'' While the 
Memorial Fund and the National Park Service had reasonable expectations 
that NCPC would follow suit, instead, it deadlocked on every vote on 
the subject after lengthy debate during an October 2005 meeting. In the 
end, NCPC asked for further study of the front lawn of the Interior 
South Building, even though the Secretary of the Interior had removed 
this building from consideration the previous June. In addition, they 
asked for further study of one other site and ``program information'' 
for the preferred site. In other words, although site approval had not 
been given, NCPC was asking the Memorial Fund to provide design details 
for the building it wanted to place there--a building that could not be 
designed until the final location was known.
    While the Memorial Fund and the National Park Service prepared to 
make a presentation to NCPC at its December 2005 meeting, we were 
shocked to find that the Education Center had been stricken from the 
agenda, with the Commission saying it wanted an environmental study 
completed before it would consider the site favored by the Memorial 
Fund.
    So, working in good faith with NCPC, the Memorial Fund hired an 
engineering firm to conduct a thorough environmental study on two sites 
at or near the Memorial to comply with the request. The study took 
several months to complete and cost $80,000.
    In the end, it nearly took an act of Congress to get site approval 
for the Education Center. In spite of the fact that the Memorial Fund 
and National Park Service had submitted to every request of every 
federal commission they met with, there was no progress. In March 2006, 
the House passed a measure that would end the delays in site approval 
by a wide margin, and the Senate began considering the measure the 
following May. It was only then that NCPC was moved to grant site 
approval in August 2006--nearly three years after Congress had approved 
the idea of a visitor center, and nearly a year and a half from the 
time that the Memorial Fund first met with the federal commissions.
    All of that time and money spent--and it was just for site 
approval.
    The complex work began with the design process. Congress mandated 
that the structure be built ``underground.'' And indeed, everyone 
involved with this project, including the Memorial Fund and National 
Park Service, have been sensitive to preserving the historic vistas 
near that end of the National Mall. On the other hand, we also need to 
ensure that our visitors--especially the disabled, and veterans who may 
have PTSD issues, feel comfortable and safe in the visitor center 
environment.
    We are fortunate to have on our team one of the world's leading 
architectural firms, Polshek Partnership Architects. These award-
winning architects, led by Jim Polshek, have designed a number of 
nationally celebrated buildings, as well as some highly successful 
underground spaces. In Polshek's capable hands, the daunting challenge 
of an underground visitor center was managed with innovation and 
creativity.
    To be sure, we still had differences to work out with the federal 
commissions. But, during meetings with both CFA and NCPC, commissioners 
were complimentary of the efforts of Jim Polshek and his team, noting 
that if any architect could take a set of almost impossible conditions 
and make them work, it was Polshek.
    In August 2006, CFA and NCPC jointly issued a set of 15 design 
guidelines for the Vietnam Veterans Memorial Education Center. While 
these were guidelines and not binding requirements, the Memorial Fund 
and National Park Service took these suggestions seriously and worked 
to incorporate as many as possible into the subsequent building plans.
    By the spring of 2007, our architects had developed three different 
plans for how an underground center could be achieved. We took these 
plans to CFA and NCPC in informal meetings to get their feedback, so we 
would know how we should proceed. We worked in good faith with these 
commissions every step of the way, and this good faith work paid off. 
CFA gave us design concept approval in October 2007 and NCPC, while it 
does not vote for concept approval, indicated that the design should 
move forward.
    We continue to work with CFA and NCPC to refine our design of the 
visitor center and work through the approval process. We conducted 
informational and formal presentations of our latest design earlier 
this year, receiving feedback from both groups and acting on those 
recommendations. I should note that the changes the Memorial Fund has 
been willing to make have been significant, including reducing the size 
of the structure, removing skylights, redirecting walkways and 
reorienting the building on the site. At every meeting, we have proven 
our willingness to listen and accept the commissioners' advice. 
Informal meetings with the commissioners have shown us we are on track 
and moving forward.
    I think everyone involved with this project has been relieved that 
the delays and disagreements of the site approval phase have not 
resurfaced during the design approval phase. However, it cannot be 
ignored that site approval ate up hundreds of thousands of dollars and 
years of effort that could have been better used later.
    This committee, quite appropriately, needs to know why we are 
asking for an extension, and here is one answer: our good faith efforts 
to meet the unprecedented demands of the federal commissions have cost 
us time and money that we need to recoup.
    There's another reason: we are in the middle of the worst economy 
our nation has experienced in decades. I don't have to tell any of you 
the challenges that every American is facing--from the family trying to 
make ends meet to the corporation trying to survive in tough times. All 
of this affects nonprofit organizations, like the Memorial Fund, as we 
try to raise money for our various programs. The economy has affected 
our fundraising for the center as well.
    But in the midst of all of this, there is good news to report. In 
spite of the economy, people believe in this project enough to put 
their money behind it. We have raised more than $3.5 million in 2009 
alone. This included a $2.5 million pledge that is not only the largest 
individual pledge the center has received, but also the largest 
individual donation the Memorial Fund itself has ever received. These 
pledges have reinvigorated our fundraising efforts. We have raised 
nearly $25 million in donations and in-kind gifts, and we estimate it 
will take $85 million in total to build the center.
    Momentum for this project is also building because of our new 
campaign chairman, San Antonio Spurs owner Peter M. Holt, who has 
actively pushed the movement forward on all fronts. He is joined by a 
robust leadership team that includes seven governors, from Texas, 
Pennsylvania, Virginia, Louisiana, Florida, Georgia and New Mexico, who 
have pledged to gather support for the center in their states. The AFL-
CIO, and its Building and Construction Trades Department, have endorsed 
the project--and many veterans' organizations are behind us as well. In 
fact, VFW pledged $1 million. We feel that this is a good indication of 
how much support we have from all facets of the American public.
    When Congress passed the bill authorizing the Education Center in 
2003, you approved the final language unanimously in both the House and 
the Senate. We took that as overwhelming evidence that Congress wants 
this important learning facility built, so future generations can 
remember and honor the sacrifices of those who served in Vietnam. The 
Education Center was conceived as a way to help put faces to the 
thousands of names on The Wall, to educate future generations about 
these honorable men and women who gave everything for their country and 
to give a glimpse into their lives. Help us keep the momentum going by 
giving us more time. We respectfully ask you to approve HR 3689 at the 
committee level, and ask for your help to provide for its consideration 
on the floor of the Senate.
    Thank you.

    [Additional documents and graphics submitted have been retained in 
subcommittee files.]

    Senator Udall. Thank you, Mr. Robinson.
    If I might, I'd thank you for your service, on behalf of 
all the members of this subcommittee and the Senate in general. 
Your story is one of many that inspires us. Thank you for being 
here today.
    Mr. Robinson. Thank you.
    Senator Udall. I'd now like to turn to Mr. David Madden, 
who hails from Black Mountain, North Carolina.
    Mr. Madden, the floor is yours.

  STATEMENT OF DAVID MADDEN, CHAIR, LOUISIANA ABRAHAM LINCOLN 
          BICENTENNIAL COMMISSION, BLACK MOUNTAIN, NC

    Mr. Madden. Thank you, Senator Udall.
    My testimony comes out of this background. I was founding 
director of the United States Civil War Center, present chair 
of the Louisiana Abraham Lincoln Bicentennial Commission, and 
the author of 40 books, including some Civil War history.
    Profoundly convinced of the enduring truth that, in the 
words of the late venerable historian Shelby Foote, ``The Civil 
War is the crossroads of our being,'' I initiated, several 
years ago, the grassroots effort that has led to S. 1838. 
Shelby Foote put the emphasis on ``is,'' not on ``was,'' as I 
do today, because the 4 years of battles, which begin and end, 
produced almost 12 years of reconstruction, the legacy of which 
Americans in the North and in the South have experienced, to 
this very day.
    To study, meditate upon, and commemorate the Civil War 
throughout the years 2011-2015 is to understand 150 years of 
aftershocks as we also become more informed and aware of the 
positive effects, one of which is that African Americans now 
hold a multitude of high offices throughout this land.
    I understand that the commission described in this bill 
will ensure a suitable national observance of the 
sesquicentennial of the Civil War by cooperating with and 
assisting State and national organizations, encouraging 
inclusiveness and appropriately recognizing the experiences and 
points of view of all people affected by the Civil War, and by 
providing assistance in the development of programs, projects, 
and a vast array of activities about the Civil War and 
reconstruction that have lasting educational value.
    When I created the U.S. Civil War Center, 15 years ago, I 
envisioned a sesquicentennial that would be far richer in 
possibilities than the centennial, given the fact that we are a 
far different Nation. A sesquicentennial would look at the war 
through the perspectives of every academic discipline, 
profession, and occupation, greatly enhanced by the 
perspectives of African Americans, Native Americans, and other 
ethnic minorities, and civilians, generally, especially women 
and children. By overemphasizing the battles, Americans have 
missed the war's many other facets, including the national 
effects of reconstruction.
    Our emotions, our imaginations, and our intellects have not 
yet completed the unfinished business to which Lincoln referred 
in the Gettysburg Address. The 4-year commemoration of the 
centennial of the Civil War, in the years 1961 to 1965, had a 
special relevance back then, and produced a national interest 
in the war that has continued to this day. The sesquicentennial 
provides a second time, and the last time, for Americans living 
today to deepen and broaden our understanding of the causes and 
effects of the war. Or, as the bill states, ``The 
sesquicentennial presents a significant opportunity for 
Americans to recall and reflect upon the Civil War and its 
legacy in a spirit of reconciliation and reflection.''
    As even more special time--an even more special time exists 
for us today as we try to understand the Civil War of other 
countries in which we are engaged and the numerous other civil 
wars worldwide that demand our attention and our concern. The 
historical context for our Civil War is, then, global. For 
almost every Nation throughout history has forged its being in 
civil war.
    Civil War Web sites throughout the country reveal that our 
Civil War is helping other nations understand their own civil 
wars. President Abraham Lincoln's primary goal was to unite the 
Nation, not just for its own sake, but also for the good of all 
nations. He envisioned the leadership that our democracy would 
provide for the world as a sacred obligation. It is, therefore, 
only fitting, in our favored time, that, following its creation 
of the commissions charged with commemorating the bicentennials 
of the Nation, and, currently, of the great President Lincoln, 
and the centennial of the Civil War, the Congress of these 
United States create a Civil War Sesquicentennial Commission to 
support the efforts of the States, North and South, that are 
now planning, or that have already created, their own 
commissions to make a 4-year revisit to the crossroads of our 
being.
    Thank you, sir.
    [The prepared statement of Mr. Madden follows:]
 Prepared Statement of David Madden, Chair, Louisiana Abraham Lincoln 
        Bicentennial Commission, Black Mountain, NC, on S. 1838
    My name is David Madden, founding director of the United States 
Civil War Center at Louisiana State University, present Chair of the 
Louisiana Abraham Lincoln Bicentennial Commission, and the author of 40 
books, including Civil War history.
    Profoundly convinced of the enduring truth that, in the words of 
the late venerable historian Shelby Foote, the Civil War is the 
crossroads of our being, I initiated, several years ago, the grass 
roots effort that has led to Senate Bill 1838. Shelby Foote put the 
emphasis on ``is'', not ``was,'' as I do today because the four years 
of battles that began and ended produced almost 12 years of 
Reconstruction, the legacy of which Americans, in the North and in the 
South, have experienced ever since.
    To study, meditate upon, and commemorate the Civil War throughout 
the years 2011-2015 is to understand 150 years of aftershocks as we 
also become more informed and aware of positive effects, one of which 
is that African Americans now hold a multitude of high offices 
throughout this land.
    I understand that the Commission described in this bill will ensure 
a suitable national observance of the sesquicentennial of the Civil War 
by cooperating with and assisting States and national organizations 
with programs and activities, encouraging inclusiveness and 
appropriately recognizing the experiences and points of view of all 
people affected by the Civil War, and by providing assistance in the 
development of programs, projects, and a vast range of activities about 
the Civil War and Reconstruction that have lasting educational value.
    When I created the United States Civil War Center over ten years 
ago, I envisioned a Sesquicentennial that would be far richer in 
possibilities than the Centennial, given the fact that we are a far 
different nation. A Sesquicentennial would look at the war through the 
perspectives of every academic discipline, every profession, every 
occupation, greatly enhanced by the perspectives of African Americans, 
Native Americans, other ethnic minorities, and civilians generally, 
while emphasizing women and children. By over emphasizing the battles, 
Americans have missed the war's many other facets, including the 
effects of Reconstruction, for 150 years.
    Our emotions, our imaginations, and our intellects have not yet 
completed the ``unfinished business'' to which Lincoln referred in his 
Gettysburg Address.
    The four-year commemoration of the Centennial of the Civil War in 
the years 1961-1965 had a special relevance and produced a national 
interest in the war that has continued to this day. The 
Sesquicentennial provides a second time and the last time for Americans 
living today to deepen and broaden our understanding of the causes and 
effects of the war. Or, as the bill states: ``The sesquicentennial of 
the Civil War presents a significant opportunity for Americans to 
recall and reflect upon the Civil War and its legacy in a spirit of 
reconciliation and reflection.''
    An even more special time exists for us today as we try to 
understand the civil wars of other countries in which we are engaged 
and the numerous other civil wars worldwide that demand our attention 
and our concern. The historical context for our civil war is global, 
for almost every nation throughout history has forged its being in 
civil war. The United States Civil War Center's website reveals that 
our civil war is helping other nations understand their own. President 
Abraham Lincoln's primary goal was to unite the nation, not just for 
its own sake but also for the good of all nations. He envisioned the 
leadership that our democracy would provide for the world as a sacred 
obligation.
    It is therefore only fitting in our favored time that, following 
its creation of the commissions charged with commemorating the 
bicentennials of the nation and currently of its great President 
Lincoln and the Centennial of the Civil War, the Congress of these 
United States create a Civil War Sesquicentennial Commission to support 
the efforts of the states north and south that are now planning or that 
have already created their own commissions to make a four year re-visit 
to the crossroads of our being.
    Over a decade ago, Gabor Boritt, founding director of the 
Gettysburg Civil War Institute, and I, as founding Director of the 
United States Civil War Center, seeing the need to voice a grass-roots 
call for a Sesquicentennial Commission, drafted passages for the bill, 
first introduced by Senator Breaux of Louisiana.
    Hard times and wars were probably the reason the bill has 
languished. But we remain convinced that even, or especially, in hard 
times, the positive effects of these commemorative activities are well 
worth the resources of towns and cities, states, and the federal 
government.
    After resigning my directorship of the Civil War Center at LSU to 
finish writing the Civil War novel, out of the research for which I 
conceived the Center, I remained committed to urging the creation of 
the Commission. In 2007, aware that the Sesquicentennial was drawing 
nigh, I created, in the office of Louisiana Secretary of State Jay 
Dardenne, the National Civil War Sesquicentennial Initiative; its 
mission is to stimulate and direct efforts to plan and facilitate the 
commemoration. Connecting with all Civil War organizations, I 
discovered that, with time passing and fearing that no commission was 
forthcoming, the leaders of most organizations were disheartened.
    One year later, I am glad to report progress. Several states have 
taken the idea of commemorating the Sesquicentennial of the Civil War 
seriously. Some are working with their neighbors while others working 
alone. Virginia, Maryland, and North Carolina each have strong state 
organizations and are cooperating in extended trail and tourist 
marketing. Pennsylvania and Virginia have established a regional 
driving route study called The Journey Through Hallowed Ground along 
Route 15/20, the Old Carolina Road, from Gettysburg to Charlottesville. 
West Virginia, Pennsylvania, Virginia, and West Virginia have created 
the John Brown 150th Anniversary Quad-State Committee, which 
effectively begins the Sesquicentennial activities. Maryland has 
created the Hear of the Civil War Heritage Area. Connecticut has 
created a Sesquicentennial Commemoration group to honor the role its 
soldiers played. New Jersey and Ohio have created similar bodies. West 
Virginia now has the Civil War Task Force to prepare for the 
celebration. Arkansas created its commission and has since divided the 
state into regions that focus on campaigns fought in the state as well 
as events for each year of the war. Missouri has created the Civil War 
Heritage Foundation, which has similar goals. An initial effort through 
the Louisiana Secretary of State's Office has begun limited planning in 
the Pelican State. Texas is beginning the process of establish historic 
trails and byways. All of these efforts have been created without a 
great deal of synergy. Each can be strengthened and augmented by a 
central planning structure and clearing house--a Civil War 
Sesquicentennial Commission. The diverse nature of not only each state, 
but of their efforts put forward during the Civil War exemplifies the 
rich complexities of the subject and the positive challenge of the task 
ahead.
    Not yet in formation are several states that were heavily involved 
in the war and that may be in special need of federal guidance and 
assistance. However, the fact that some states and even regions have 
already secured some funds and set plans in motion will lessen the need 
for federal funds.
    The effectiveness of states already involved will be greatly 
enhanced by the leadership of the federal commission, the existence of 
which may also act to encourage other states to create activities. The 
Civil War and its aftermath affected every state in the Union and its 
territories, including California and even Montana.
    Likely activities of the Sesquicentennial extend across a broad 
spectrum, consisting of commemorative ceremonies, speeches, lectures, 
Civil War heritage trails, preservation projects, exhibits, plays, 
movies, and other mass media presentations, newspaper and periodical 
articles, and, of course, books. Many very fine books came out of the 
Centennial years, as during the current Lincoln Bicentennial. Among 
universities whose presses are known for publishing Civil War books are 
LSU, Mississippi, University of Arkansas, University of Kansas, 
Southern Illinois University, University of Tennessee, University of 
Georgia, and Kent State, which also publishes a periodical.
    Since the Civil War, many little known places and events of the war 
have been further explored or discovered. For instance, the steamboat 
Sultana, carrying homeward about 2,000 Union soldiers released from 
Cataba and Andersonville prisons, exploded in the dark, in the rain 
several miles above Memphis; over 1500 soldiers and about 200 civilians 
drowned in the worst maritime disaster in American history, worse than 
the Titanic, as President Lincoln's funeral train was crossing the 
country. Even after four books and a documentary have appeared, most 
Americans remain unaware. This event is a symbolic expression, 
embodying every adjective for sad loss, of the Civil War. Missing so 
far is a national conceptual imagination that places the Sultana 
disaster in a tragic light. Meanwhile, the darkness of that night still 
hangs, almost 150 years deepening, over the smoke, the screams and the 
prayers of the victims and the compassionate cries of the rescuers, 
some of them Confederate soldiers who were also returning home. Only 
the light of an extraordinary imagination can unvex and raise this 
unique and complexly meaningful event from the bottom of the Father of 
Waters.
    The Sesquicentennial will call attention to other places and 
events.
    The Centennial gave a boost to longtime efforts to create a state 
park at Port Hudson, Louisiana, which kept the Union army from coming 
down river to New Orleans after Vicksburg fell; even so, its fame is 
not widespread. Efforts that are well underway to bring well-deserved 
attention to the vital Red River Campaign may well be successful if 
given encouragement and support by the Sesquicentennial Commission.
    The siege at Fort Sanders in Knoxville, Tennessee and generally, 
the war in the southern Appalachian region are little known.
    A Sesquicentennial Commission would help speed up the effort now 
underway to create a Knoxville area Civil War Center. An effort in the 
Office of Louisiana's Secretary of State to create a Civil War and 
Reconstruction Center is now in the planning stage.
    The Commission could encourage small towns to discover and make 
known as tourist attractions Civil War events in their history, thus 
stimulating their economies. A good example is Black Mountain, North 
Carolina, about which it is little known, even by its citizens, that so 
many black slaves escaping from South Carolina made their way to Black 
Mountain that its population grew from 0.3% African American, to over 
89% African American.
    Very seldom is the fact cited that 30,000 civilians were Civil War 
casualties.
    Interest in the American Civil War is worldwide. The United States 
Civil War Center website has received an astonishing number of hits 
from nations around the world, from Israel to Malaysia. Former 
Secretary of State Madeline Albright told me that she wishes she had 
had in hand the book I am writing on the nature and history of civil 
wars worldwide when she was Ambassador to the UN. Many parallels are 
readily apparent between our Civil War and The Taiping Rebellion, a 
widespread civil war in China from 1850 to 1864, led by Christian 
convert Hong Xiuquan, against the ruling Qing Dynasty. To understand 
our Civil War is, then, to understand ourselves as we are; to 
understand the Chinese Civil War is to understand the Chinese today.
    If we think of the Civil War Sesquicentennial as four years of many 
kinds of occasions for revisiting not only the history of the Civil War 
but also for revisiting our entire history, we will see, as Lincoln 
often did, how it reflects the legacy of the Declaration of 
Independence and the consequent Revolutionary War and the legacy of the 
era in which the Constitution and the Bill of Rights and the 14th 
Amendment were forged. The legacies of those events often played a role 
in successive phases of the Civil War era.
    We will see how issues dramatized throughout the pre-War and the 
War years affected the conduct of the long, punitive Reconstruction 
era, affected by the fact that the assassinated President could not 
pursue his carefully crafted non-punitive plan for Reconstruction.
    We will see how prolonged economic, racial, political, and social 
problems in the former Confederate states put a drag on the progress of 
democracy in the nation as a whole throughout times of both prosperity 
and adversity, and through the Spanish American war, two world wars, 
the Korean and Vietnam wars, and the civil rights era.
    And we will see ways in which the Sesquicentennial will open up 
fresh perspectives on our involvement in the Iraq and Afghanistan 
``civil wars.'' How that may happen, we will see, if we remember how 
the discussions, debates, and books during the conduct of the Civil War 
Centennial years of 1961 through 1965 influenced the activities of the 
civil rights movement in ways both negative and positive.
    In such considerations of history, we made and we shall make 
history.
    Historian Shelby Foote also said, ``There are two sins for which 
America can never atone--slavery and reconstruction.'' Even though he 
was a Southerner, he stressed America, North and South in that 
pronouncement. Lincoln made the first great effort to atone for 
slavery; it is clear that we, both North and South, would not have to 
atone for Reconstruction had Lincoln lived, newly re-elected with 
enhanced power to promulgate his own plan. A major change in the study 
of the Civil War since the Centennial is an increased emphasis upon the 
effect of the war: Reconstruction. The one can most meaningfully 
studied within the context of the other. Most obviously, the effect of 
the war upon John Wilkes Booth was to assassinate President Lincoln and 
that act affected the nature of Reconstruction. The legacy of 
Reconstruction is in force in our daily lives.
    An understanding of the causes and effects of the Civil War in the 
context of these very changed United States of America will make the 
democratic vistas of our future brighter, will perhaps lead us at long, 
long last into an era of reconciliation between north and south and 
conciliation between white and African Americans.
    The Centennial's published report to the Congress and a recent 
book, Troubled Commemoration by Robert J. Cook, provide guidance for a 
Sesquicentennial Commission by describing the organization's structure 
and its procedures, the trials and tribulations of the Centennial, and 
the ways and extent to which they were conducted and overcome.
    Those books also clearly show how very different the 
Sesquicentennial must and may be. With the guidance of the African 
American Civil War Museum in Washington, along with many other 
organizations, the participation of African Americans will be stronger, 
as will that of Native Americans and other minorities, including 
Latinos, Asians, Jews, and Americans of every national origin.
    Today, our democratic spirit of compromise and practices of 
resolution make disputes among all participants far less likely. For 
instance, despite infrequent and strictly localized debates over the 
Confederate battle flag (often replaced by the far less problematic 
Confederate states flag), the Southern states are so thoroughly 
transformed, economically, politically, and socially as to make 
predictions of greater cooperation with Northern states and with 
African Americans credible.
    The following list of the U. S. Civil War Center's advisory board 
members who have served over the years will give some indication of the 
sustained support for the creation of a Civil War Sesquicentennial 
Commission:

          Gabor Boritt, Lincoln scholar and Founding Director of the 
        Civil War Institute at Gettysburg, sister organization to the 
        USCWC; James I. ``Bud'' Robertson, Jr., formerly chair of the 
        Civil War Centennial board, present director of the Virginia 
        Center for Civil War Studies, John Hope Franklin, renowned 
        African American program historian (deceased); Shelby Foote, 
        Pulitzer Prize-winning novelist and historian (deceased); Ted 
        Turner; Ron Maxwell, author and director of Gettysburg and Gods 
        and Generals; Jeff Shaara, author of Gods and Generals, two 
        other Civil War novels and several others depicting America's 
        wars, donor of the Michael Shaara prize for Civil War novels; 
        Glenn Seaborg, Nobel Prize winner in physics (deceased); 
        William Davis, author of 40 books of mostly Civil War history, 
        director of Virginia Center for Civil War Studies; Kareem 
        Abdul-Jabbar, sports legend, writing a Civil War novel; Rita 
        Dove, African American former U. S. Poet Laureate; Frank 
        Magill, publisher, who pledged a million dollars to establish 
        the USCWC at LSU (deceased, replaced by his son); E. O. Wilson, 
        Pulitzer Prize winning biologist; Ken Burns, renowned director 
        of the epic documentary The Civil War; T. Michael Parrish, 
        Civil War historian who first proposed the creation of the 
        Sesquicentennial Commission; John Simon, Grant historian and 
        director of the Grant Foundation; Ed Bearss, chief historian of 
        the National Park Service; Waylon Jennings, composer-singer of 
        Civil War songs (deceased); Tom Wicker, journalist, novelist.

    The nature of the Civil War, its causes and effects, and its status 
as the crossroads of our being, make the work of a Sesquicentennial 
Commission peculiarly well situated to make American citizens aware of 
their entire history. Our generation has already been favored with 
major commemorations: The Civil War Centennial, the Bicentennial of our 
nation, the Louisiana Purchase Bicentennial. Nevertheless, ignorance of 
our history, from Plymouth Rock to Iraq, is a reality of very serious 
national concern. For instance, despite the good work of the Abraham 
Lincoln Bicentennial Commission and several state commissions, the hard 
fact is that many Americans, among them the well educated, do not know, 
within three months of the end, that the Bicentennial is underway. All 
the greater was and is the need for the current Lincoln Commission and 
in the following year for the Civil War Sesquicentennial Commission.
    A major focus of most activities during the four years of the Civil 
War sesquicentennial, as it has been for the one-year Lincoln 
Bicentennial, will be upon the children, in schools and in other public 
venues. Teaching history to our children is made all the more difficult 
in a context of adult ignorance of history. A nation regarded as the 
leader of the world must not act out of ignorance of its own history. 
Knowing its own history will make this nation as world leader much more 
credible and effective. We would do well to close that sequence of 
commemorations in our time with the Civil War Sesquicentennial.

    [Additional information submitted has been retained in subcommittee 
files.]

    Senator Udall. Thank you, Mr. Madden. I know Dr. Foote 
would have been thrilled to hear what you just shared with us. 
As I glanced over your testimony, the story of the Sultana, for 
example, is one that could be told more broadly.
    Mr. Madden. Oh, yes.
    Senator Udall. Thank you for your testimony here today.
    Mr. Madden. Thank you, sir.
    Senator Udall. We now turn to Mr. Edwin Fountain, who's the 
director of the World War I Memorial Foundation here in 
Washington, DC.
    Mr. Fountain, welcome, and the floor is yours.

           STATEMENT OF EDWIN FOUNDATION, DIRECTOR, 
                WORLD WAR I MEMORIAL FOUNDATION

    Mr. Fountain. Thank you, Chairman Udall.
    My name is Edwin Fountain. I'm an attorney in private 
practice here in Washington, the grandson of two World War I 
veterans, and a cofounder of the Foundation.
    In addition to the support of Senators Webb, Thune, and 
Rockefeller, I'd like to acknowledge the other cosponsors of 
the bill, Senators Barrasso, Burr, Inhofe, Lieberman, 
Brownback, Byrd, and Tim Johnson, and I'm advised that Senators 
Inouye and DeMint will also be signing on to the bill. We also 
have the support of the American Legion Department of the 
District of Columbia, which holds a annual Memorial Day 
commemoration at the DC War Memorial. Two days ago, the 
District of Columbia city council passed a resolution in 
support of S. 2097, which I would be happy to pass up to staff 
to be entered into the record.
    Senator Udall. We'll introduce that in the record, without 
objection.
    Mr. Fountain. Thank you, Mr. Chairman.
    We come to the question of a national World War I memorial 
somewhat through the backdoor, because in the 1920s, when the 
Liberty Memorial and the DC War Memorial were being developed 
and built and dedicated, we didn't think of national war 
memorials. Every town in the country has its own local war 
memorials, whether they be to the local veterans of the Civil 
War or World War I or, often, all the Nation's wars 
collectively. In Washington, of course, there are numerous 
memorials to generals and statesmen of the Revolution and the 
Civil War. But, until the Vietnam Veterans Memorial came along, 
there were no national war memorials, so to speak. The District 
of Columbia War Memorial sat on the Mall, alone, for 50 years. 
Then the Vietnam Veterans Memorial was dedicated, around 1980--
I forget exactly the year. Since then, the Korean War Memorial 
and the World War II Memorial have come along and followed.
    So, in an ad hoc fashion, we now have this war memorial 
park, located around the Lincoln Reflecting Pool, including 
national memorials to three of the four great wars of the 20th 
century, but no national memorial to World War I. World War I 
was, of course, the first time that American soldiers went 
overseas in defense of liberty and against foreign aggression.
    I don't think I need to make the case, at this point, for a 
national memorial. But the absence of a national memorial on 
the Mall has now become a glaring omission, because we tell 
part of the story of the American century on the Mall, but not 
the entire story, without a national memorial. I wager that 
most members of the committee, like myself, drove by the DC 
memorial, or walked past it, or ran past it, for years, without 
ever knowing what it was. It's a neglected, forgotten memorial. 
Frankly, that's part of its beauty and its poignancy. But it is 
overlooked. No one really knows what it is. Part of our 
purpose, frankly, is not to Federalize the DC memorial, but to 
elevate its status, and give it stature commensurate with that 
of the other memorials. It doesn't appear on most maps or signs 
on the National Mall, directing visitors to it, or even telling 
them what it is.
    So, there's this quartet of memorials to the major wars of 
the 20th century; only World War I lacks a national memorial on 
the Mall, and the proposed bill would rectify that by 
authorizing rededication of the DC memorial as a National and a 
District of Columbia War Memorial, thereby giving honor to the 
veterans of World War I that is equal to that bestowed on the 
veterans of other majors wars, while helping future generations 
of Americans to know the complete history of America's 20th-
century struggle against aggression and totalitarianism.
    Director Stevenson suggested that the proposed design would 
overwhelm or so alter the present site that it would become a 
new memorial. To the contrary, the bill expressly provides that 
any additional element introduced would complement and preserve 
the existing memorial. Moreover, under the Commemorative Works 
Act, any design would be subject to design review by the 
Commission of Fine Arts and the National Capital Planning 
Commission. So, those concerns would certainly be taken into 
account.
    Finally, the location of a national memorial on the Mall in 
Washington need not detract from the commendable efforts of the 
citizens of Kansas City. The Liberty Memorial has properly been 
designated by the government as a national symbol of World War 
I. The National World War I Museum is appropriately located in 
Kansas City, much as the National World War II Museum is 
located in New Orleans, while the National Memorial is here in 
Washington. We fully support the proposal to establish a World 
War I Centennial Commission based in Kansas City.
    Now, speaking to commissions, the Interior Department 
proposes a study for their--of World War I Memorials at a cost 
of $300,000 and taking 3 years. In 3 years, we will be on the 
eve of the centennial of the--of World War I, leaving no time 
to make appropriate provisions for a national memorial in time 
for that centennial.
    So, we believe the Congress would diminish the sacrifice of 
Frank Buckles and almost 5 million other Americans in World War 
I, including 116,000 dead, if it did not honor them on the Mall 
in the same manner as the veterans of the wars that followed. 
We ask the Senate to pass S. 2097.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Fountain follows:]
Prepared Statement of Edwin L. Fountain, Director, World War I Memorial 
                         Foundation, on S. 2097
    Chairman Udall and members of the Committee:
    My name is Edwin Fountain. I am an attorney in private practice 
here in Washington, and the grandson of two World War I veterans. I am 
a co-founder and director of the World War I Memorial Foundation. The 
Foundation is proud to have as its honorary chairman Mr. Frank Buckles, 
the last surviving American veteran of World War I.
    Last year, Mr. Buckles came to Washington for a ceremony in his 
honor at the Pentagon. During that trip he visited the District of 
Columbia War Memorial, located on the Mall between the World War II and 
Korean War memorials. He was distressed to see that it was only a 
memorial to the veterans of D.C., and not a national memorial.
    Throughout our country's history, towns and cities have erected 
their own war memorials, be they to local veterans of the Civil War, or 
of World War I, or of all the nation's wars collectively. In 
Washington, there are of course numerous memorials to generals and 
statesmen of the Revolution and the Civil War. But until the Vietnam 
Veterans Memorial was conceived thirty years ago, there were no 
national war memorials.
    Today we have on the Mall national memorials to three of the four 
great wars of the 20th century, located in what has become a de facto 
``war memorial park'' around the Lincoln Reflecting Pool.
    There is, however, no national memorial to World War I. With the 
irony of hindsight, that war was at first called ``the war to end all 
wars.'' In retrospect, we now know that ``the Great War'' was but the 
first time that American soldiers would go overseas in defense of 
liberty against foreign aggression. Over 4.7 million Americans served 
in uniform, and 116,516 gave their lives--more than in Korea and 
Vietnam combined.
    World War I was also the first great conflict of what has come to 
be known as ``the American century.'' It led directly to the Second 
World War, and its consequences are still felt today in ongoing 
conflicts in the former Yugoslavia, Israel and Palestine, and Iraq.
    Few Americans today know this history, and the absence of a 
national memorial to World War I on the Mall in Washington has become a 
glaring omission, all the more so because the centennial of the war is 
less than five years away.
    S 2097 would fill that void, by authorizing the re-dedication of 
the District of Columbia War Memorial as a ``National and District of 
Columbia World War I Memorial.''
    The D.C. War Memorial was dedicated in 1931 as a memorial to the 
499 residents of the District who died in the war. President Hoover 
spoke at its dedication, and John Philip Sousa conducted the Marine 
Corps band. It stood alone for fifty years, until it was joined by the 
Vietnam Veterans Memorial, and then later by the Korean War and World 
War II memorials.
    As indicated on the attached map,* together with those three other 
memorials, it comprises a quartet of memorials to the major wars of the 
20th century. Yet alone among those memorials, it lacks national 
status. Few residents or visitors are even aware of the memorial, much 
less know what it is. Most maps and signs do not even refer to the 
memorial.
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    S 2097 would authorize its re-dedication as a national memorial, 
and thereby give honor to the veterans of World War I that is equal to 
that bestowed on the veterans of the other major wars, while helping 
future generations of Americans to know the complete history of 
American's 20th-century struggle against aggression and 
totalitarianism.
    Re-dedication of the D.C. memorial would not be contrary to the 
Commemorative Works Act. That Act prohibits the location of any new 
commemorative works on the Mall. However, S 2097 does not authorize a 
new commemorative work, but rather the re-dedication and enhancement of 
a memorial that already exists on the Mall.
    Moreover, the local character of the existing memorial would be 
preserved. While Section 3 of the proposed bill permits the addition of 
an appropriate sculptural or other commemorative element, in order to 
give the memorial a national character, it also specifies that any such 
feature shall ``complement and preserve the existing memorial and its 
landscape.'' In this way the sacrifice of District residents in the war 
will continue to be honored, and the peaceful and secluded character of 
the site will be preserved.
    We emphasize that S 2097 is not meant to somehow ``federalize'' the 
District's memorial. Rather, it will bring attention to the memorial by 
elevating it to the same status enjoyed by the surrounding war 
memorials. At the same time, the memorial will provide visitors a 
lesson in the history of our memorials, while calling their attention 
to their own memorials back home.
    Finally, location of a national memorial on the Mall in Washington 
need not diminish the commendable efforts of the citizens of Kansas 
City. The Liberty Memorial has already, and properly, been designated 
by the Congress as a national symbol of World War I. The national World 
War I museum is appropriately located in Kansas City--much as the 
national World War II museum is located in New Orleans, while the 
national memorial is here in Washington. As noted in Mr. Buckles' 
letter of October 4, 2008 to the Missouri Congressional delegation 
(attached),** both he and our Foundation support Kansas City's museum 
and its proposal to establish a World War I centennial commission based 
in Kansas City.
---------------------------------------------------------------------------
    ** See Appendix.
---------------------------------------------------------------------------
    Twenty-five million people, from around the country and across the 
world, visit the Mall each year. As we have heard from thousands of 
students, veterans and citizens around the country who support our 
cause, those visitors expect to honor the nation's veterans in the 
nation's capital--as evidenced by the location of the other great war 
memorials in Washington.
    Congress would be minimizing the sacrifice of Frank Buckles and 
almost five million other Americans in World War I, including 116,000 
dead, if it did not honor them on the Mall in the same manner as the 
veterans of the wars that followed.
    We ask the Senate to pass S 2097. On behalf of Mr. Buckles and the 
Foundation, thank you for the opportunity to testify today.

    Senator Udall. Thank you, Mr. Fountain.
    I will now recognize myself for a series of questions. I 
think I'd like to start by focusing on this discussion of the 
World War I memorial. Mr. Alexander, I'll direct some questions 
to you and then turn to Mr. Fountain.
    Mr. Alexander, in your opinion, is it important that there 
be one recognized national World War I memorial or are multiple 
memorials in different parts of the country appropriate?
    Mr. Alexander. There are numerous memorials throughout the 
country, but on different levels, different scales. So, there 
are, I would estimate, something like 500 different memorials, 
most of which are dedicated to local communities whose members 
sacrificed during World War I. The memorial in Kansas City was 
designed to honor those people throughout the United States who 
sacrificed during World War I. So, we're different than many 
other local kinds of memorials.
    In essence, we've been acting as the de facto national 
memorial for 80-some years, and we've been given that sanction, 
first by President Coolidge, then again by President Eisenhower 
and President Truman, and we hope that we can continue doing 
that in Kansas City.
    Senator Udall. A second question for you. What's your 
response to those who question whether it's appropriate to have 
a national war memorial that's privately owned and operated and 
charges an entrance fee?
    Mr. Alexander. As a point of clarification, the museum and 
memorial are owned by the city of Kansas City and managed by 
the Liberty Memorial Association, through a management 
agreement with the City, so it's not privately owned, but it's 
operated independently. I'm sorry--your question?
    Senator Udall. What's your response to those who would 
question whether it's appropriate to have a national war 
memorial that's privately owned and operated and that charges 
an entrance fee?
    Mr. Alexander. I mean, we are self-supporting. We get a 
small subsidy from the City, but we are essentially self-
supporting. We also have taken, traditionally, no tax dollars 
to support ourselves, and it's necessary for us to charge an 
admission to manage ourselves. So, I think, one way or another, 
the citizens of this country pay for it. In our case, the users 
are actually paying directly to visit the museum, rather that 
it coming through a tax base or another means.
    Senator Udall. Thank you.
    Let me turn to Mr. Fountain.
    I'd like to know more about the World War I Memorial 
Foundation. Was it established just for the purpose of 
rededicating the memorial, or is it involved with other issues?
    Mr. Fountain. It was established with 2 purposes. The first 
was to advocate and raise funding for the restoration of the 
memorial. I do want to applaud the National Park Service for 
allocating funds, under the stimulus bill, to that restoration. 
So, they accomplished that half of our mission for us, and 
we're very grateful.
    The other purpose is to, first, advocate for congressional 
authorization for the rededication, and then to raise the funds 
necessary to implement that, and it would be a entirely 
privately funded, no-Federal-funds project.
    Senator Udall. Let me follow up on the money. What kind of 
money do you anticipate it would take to do the rededication 
work? Do you have a plan for raising those funds?
    Mr. Fountain. To be honest, if this was over $5 million, 
then we were too ambitious, in terms of the scale of what we're 
providing--what we're seeking. I've--you know, some sculptors 
have already approached us, expressing interest in the project. 
You know, a back-of-the-envelope quotation for an-foot-high 
bronze is a few hundred thousand dollars. So, we're not 
talking--you know, we are not talking something the size--the 
scale of the World War II Memorial.
    We would anticipate accommodation of corporate and private 
donations. One of my cofounders was a photographer, who set out 
the photograph the last surviving veterans of the war, when 
there were about a dozen left, has a traveling exhibit of his 
photographs and other artifacts of the war that is now going to 
schools around the country that are using it as a basis of 
fund-raisers, much as the DC War Memorial was funded, in large 
part through schoolchildren contributions. We would seek to 
include that, as well. But, a combination of corporate and 
private funding.
    Senator Udall. Thank you for that clarification.
    I did, for the record, want to include a conversation I had 
with Senator Thune on the way to vote. He had a chance to visit 
with Mr. Buckles earlier during the day, and he asked him what 
his secret was--or his secrets were, to live to the age of 108. 
Mr. Buckles' response was a threefold response. No. 1, it's 
important to stay busy and engaged. No. 2, to exercise. No. 3, 
to start young.
    [Laughter.]
    Senator Udall. Now, Senator Thune and I think he meant that 
about exercising, but I think he also meant it in a sense of 
stay young in your thinking and your outlook. But, given the 
celebrity nature of his appearance here today, I want to make 
sure we learned the appropriate lessons--along with his 
wonderful, patriotic service.
    Mr. Madden, let me turn to you. Some Senators have 
criticized other Federal commissions established to commemorate 
a significant historical event as a waste of money. As you 
noted, several States are already planning their commemoration 
efforts. Can you explain what you see the Commission adding to 
the sesquicentennial commemoration efforts?
    Mr. Madden. The States that have already begun, did not 
begin, really, until a couple of years ago, when, I understand, 
Civil War organizations generally--despite an early attempt 
that I made to bring them all together to support this bill, 
they felt that there probably wouldn't be, because time was 
running out, a commission. So, certain States and organizations 
went ahead on their own. There are very few who have made 
significant progress. I think Virginia is probably in the lead, 
North Carolina is significant. But, that leaves out a good part 
of the Nation, and that leaves out what I consider a very 
important opportunity for other parts of this nation--other 
States--to get to know the significance of this crossroads of 
our being, to make it part of their being, so that we need 
leadership of a commission, if not funds. But, certainly funds 
for those States and those places that don't have any money. We 
need the leadership and some degree of funds to jumpstart, to 
inspire, to encourage those States and organizations that have 
not yet gone ahead on their own.
    I think it would be a piecemeal celebration that would not 
bring honor to this country if the rest of the Nation looks at 
what Virginia, let's say, is doing, Pennsylvania is doing, but 
that feels that it is a localized sort of experience. So, I 
think it's essential that this have some strong national face.
    As far as the money is concerned, I just want to point out 
that I created the Civil War Center with almost nothing. I 
conducted it for 7 years for less than 30,000 a year. So, there 
are ways, with a little bit of money and with the authority I 
had from the University, which is the parallel to the 
commission--there are ways to do an incredible lot, as we've 
done with the Abraham Lincoln Bicentennial in Louisiana, with 
very, very little money.
    Senator Udall. Thank you for that clarification. My wife's 
from North Carolina. She has a number of degrees. One of them 
is in English and American Literature. She was very fond of 
Faulkner. Because you're here, I wanted you to edify me. I 
think she is fond of pointing out that one of Faulkner's 
characters, when asked about the Civil War and whether it was 
over, said something to the effect, ``No, the Civil War is not 
over. It's never over. We're still fighting the Civil War.''
    Mr. Madden. Oh, yes. That's right.
    Senator Udall. Is that reasonably accurate?
    Mr. Madden. Yes. But, I think--as I pointed out in the long 
version of my testimony, I think that the conflict is not going 
to be anywhere near as severe as it was in the Centennial, 
which was a success, after all. This is a democracy, where you 
deal with conflicts. I think that we're such a totally 
different Nation, that those elements that might want to make 
this a contentious occasion are in the tiny minority. But, I 
will say, for your wife's edification, if I may----
    Senator Udall. My edification.
    Mr. Madden [continuing]. That the greatest Civil War novel 
is ``Absalom, Absalom!''
    Senator Udall. I take note, and I will do my best to find 
the time to----
    Mr. Madden. I hope she went to Appalachian State 
University, where I first taught, in 1957; my first teaching 
job.
    Senator Udall. I'm sorry to disappoint you, but she's a Tar 
Heel. She went----
    Mr. Madden. What?
    Senator Udall [continuing]. To school in Chapel Hill.
    Mr. Madden. Oh, Chapel Hill. Oh, yes.
    Senator Udall. She's a Tar Heel. So, she----
    Mr. Madden. OK. Yes.
    Senator Udall. But, thank you for indulging me. This is 
powerful testimony, and the more we remember the right kinds of 
lessons, the better our country will be. So, thank you, again, 
for elaborating.
    Let me turn to Mr. Barboza. Perhaps more than anyone in 
this room, you have the difficulty of seeing a memorial through 
to completion. Given the difficulty and the years of delay with 
the previous authorization, why do you expect that a new 
authorization would be more successful?
    Mr. Barboza. I know what some of the problems were with the 
previous one, and it didn't have anything to do with the merit 
of the history or of raising funds. Certainly, enough funds 
were built to build a memorial, but it didn't get done. Those 
things happen. It's happened with many projects. But, I feel 
that the difference here is that we have living descendants, 
now, who are discovering their ancestors. This is very powerful 
stuff. We needed to do this many, many years ago, generations 
ago. After the Civil War, we needed to reconcile ourselves, our 
history, and come to understand who we are as Americans, 
because the only thing that holds us together is our 
principles. If we don't understand that, and we continue to 
question who an American is, because of their race, their 
color, their background, their religion, their political 
thought, we're never going to get anywhere. In order to 
preserve our Nation, we have to preserve liberty.
    This connection to the Civil War--it was my great-great-
grandfather--a photograph that I saw when--my first memory of 
my grandmother's house was walking in and seeing this picture 
of my great-great-grandfather in a Civil War uniform. I didn't 
know who he was or what. It wasn't until years later that I 
began to ask questions. That's how I discovered the Black 
patriots, through my own research, finding out that I had an 
ancestor who served in the Revolutionary War, having my aunt's 
application rejected by the Daughters of the American 
Revolution, then spending 24 years to have the Daughters of the 
American Revolution fulfill her membership agreement in 1984, 
and that is to identify every Black soldier who served in the 
war. That has been completed. Now we know who they are, and 
people are discovering their ancestors through that 
documentation.
    One last thing. I started young. Fortunately. Half an age 
ago. So, I'm pleased to be here.
    I just want to say that the name Udall stands out in my 
memory of the Kennedy administration, of the very height, and 
your family's contributions. So, I'm honored to be here.
    Senator Udall. Thank you for that acknowledgment, and I'll 
pass your regards on to my Uncle Stewart, who served as 
Interior Secretary and----
    Mr. Barboza. Indeed.
    Senator Udall. He started young, too, given he's 90 years 
old.
    Mr. Barboza. Wonderful.
    Senator Udall. Let me--one last question. Do you anticipate 
you'd stay with the same design for the previously authorized 
memorial, or----
    Mr. Barboza. No.
    Senator Udall [continuing]. Are you considering something 
different?
    Mr. Barboza. No, we'll--we will consider a new design. That 
will be entirely left behind. This will be an entirely new 
project with a new site and a new design.
    Senator Udall. OK. Thank you for those insights and sharing 
your own story. It gave me goose bumps to hear you account--
share that account with us. I think--and it's hard--what you're 
saying is, we're all Americans. America is a place, but it's 
also an idea; and you keep both alive by pursuing what you're 
proposing.
    Let me turn--not last, but not least--to Mr. Robinson.
    I had--before I ask you my question, I had a wonderful 
opportunity--Jan Scruggs might be interested in this--to spend 
a few days with Maya Lin in, all places, Tibet, about 15 years 
ago. I was on an expedition to Mount Everest. She happened to 
be traveling in Tibet with a friend. She's Chinese-American. 
She doesn't speak a word of Mandarin or the major Chinese 
dialects, but she was eagerly soaking up all that that great 
country has to offer, and she was in Tibet, as well, when I met 
her. The story of that memorial and the effect it's had on all 
of us is such a powerful one.
    You described the efforts that the Memorial Fund has made 
in securing the necessary authorizations and steps you've, so 
far, taken to raise the funds. You still need to raise--I 
think, it's about $60 million, which is----
    Mr. Robinson. About 60 million.
    Senator Udall [continuing]. More than double what you've 
raised to date. How confident are you that your organization 
can raise those remaining funds by the extended authorization 
deadline?
    Mr. Robinson. We're very confident. Our current chairman, 
our current corporate campaign chairman, Peter Holt, has taken 
this on as a full-time endeavor. He's--he has a firm that's 
working for him on just this. In just the past several months, 
we've had major contributions. We have a plan to raise this 
money. One of the plans is that we would go to VFW and Military 
Order of the Purple Heart chapters and ask them to support the 
names that are on The Wall from those locations; $1,000 per 
name. We've tried that. We've been very successful at doing it, 
and we're very confident that we're going to be able to raise 
this money.
    Senator Udall. Thank you for that additional detail, and 
for the work you've done, again, and for--as I said earlier, 
for your service and your example. It's a powerful one.
    Senator Udall. Let me bring the hearing to a conclusion.
    I want to thank all of you for your time and the insights 
you provided. Clearly, each one of you is passionate about your 
specific proposal, and your testimonies helped us, and me, 
better understand the issues.
    Mr. Alexander, did you want to----
    Mr. Alexander. Senator, may I make a point of 
clarification?
    Senator Udall. Yes. Sure. Of course.
    Mr. Alexander. Thank you.
    Senator Udall. Of course.
    Mr. Alexander. I just want to note that there is no cost to 
see the memorial itself at the Liberty Memorial. It is just 
admission to the museum. Part of our success throughout the 
years has been our ability to generate support, both publicly 
and privately, to help minimize that cost.
    I might also note that the National Park Service now is 
forced to charge admission to many of its sites, as well. It's 
one of those unfortunate necessities to sustain nonprofit 
organizations.
    Senator Udall. Thank you for that clarification.
    That does lead into my final comments, as we formally end 
the hearing, and that's that some members of the committee may 
submit additional questions in writing to each of you, and, if 
so, we'd ask you submit answers for the record. We'll also keep 
the record open for a couple more weeks for any additional 
comments you may want to make. There may be ways in which you 
want to elaborate or clarify or provide us with additional 
information. We want you to do that, because, as we move 
forward to making decisions about how we may proceed, or 
changes we might want to make, we need that information.
    So, again, thank you for spending your time here this 
afternoon. This was a memorable hearing today.
    The subcommittee is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the large amount of materials received, only a 
representative sample of statements follow. Additional documents and 
statements have been retained in subcommittee files.]

                                  Veterans of Foreign Wars,
                                 Washington, DC, November 24, 2009.
Hon. Mark Udall,
U.S. Senate, Hart Senate Office Building 110, Washington, DC.
    Dear Senator Udall: On behalf of the 2.2 million members of the 
Veterans of Foreign Wars of the United States and our Auxiliaries, I 
would like to offer our strong support for H.R. 3689, to provide for an 
extension of the legislative authority of the Vietnam Veterans Memorial 
Fund, Inc. to establish a Vietnam Veterans Memorial visitor center.
    This important legislation would help build a visitors' center near 
the Vietnam Memorial on the National Mall. This visitors' center would 
show the many unique and meaningful items that have been left at the 
memorial to honor those who gave their lives serving our country. The 
center would serve as a place to educate America' youth as well as 
continue the healing fought valiantly for our country. We thank you for 
reviewing this bill before your committee.
    We look forward to working with you to help pass this legislation 
into law.
            Sincerely,
                                  Thomas J. Tradewell, Sr.,
                                                Commander-in-Chief.
                                 ______
                                 
       Building and Construction Trades Department,
      American Federation of Labor--Congress of Industrial 
                                             Organizations,
                                  Washington, DC, December 1, 2009.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: On behalf of the skilled craft professionals 
who comprise the 13 national and international unions of the Building 
and Construction Trades Department, I write to you today to encourage 
your active support for HR 3689, which would extend the legislative 
authority for the Viet Nam Veterans Memorial Fund, Inc. and authorize 
the funds for the construction of an Education and Visitors Center for 
the Memorial.
    The Viet Nam Veterans Memorial has become not only an iconic symbol 
of the courage, bravery and sacrifice exhibited by the men and women 
who served during that era, but it also serves as a spiritual 
destination for millions of Americans who make the determined 
pilgrimage to Washington, DC in order to come to grips with the loss of 
a loved one or comrade, or to alleviate their suffering and begin the 
process of healing.
    The Education and Visitors Center has been conceived as a way to 
put faces to the names that are on the Wall; to bring to life their 
stories; and to help millions of Americans better understand, and 
appropriately honor, the men and women who gave all that they had in 
service to their country during that era.
    Therefore, on behalf of the tens of thousands of our members who 
are veterans of the Viet Nam War (including myself), I respectfully 
request that you do all that you can to approve this legislation and 
provide an additional boost to the momentum that is carrying us towards 
the construction of this important facility.
    With kind regards, I am
            Sincerely,
                                             Mark H. Ayers,
                                                         President.
                                 ______
                                 
                       National Coalition to Save Our Mall,
                                   Rockville, MD, December 1, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Committee on Energy & 
        Natural Resources, 304 Dirksen Senate Building, Washington, DC.
RE: Reauthorization of the Vietnam Veterans Memorial Visitor Center

    Dear Chairman Udall and Subcommittee Members: We urge you during 
the December 3 hearing of the Subcommittee on National Parks to shine 
new light on the Vietnam Veterans Memorial Visitor Center project, 
especially on new circumstances that raise serious doubts about the 
need, location, and long-term impact of the project on the Vietnam 
Memorial itself and the National Mall. The failure of the Vietnam 
Veterans Memorial Fund to secure adequate funding in seven years speaks 
also to the lack of strong public support for this addition to the 
Memorial.
    The National Coalition to Save Our Mall is a nonprofit citizens 
organization seeking a broad, visionary plan for the National Mall. We 
are the only organized voice for the public on Mall matters. We have 
strongly opposed the location for the visitor center at the Vietnam 
Memorial, stating in writing and during public consultation meetings 
that it will detract from the visitor's experience of the Memorial 
itself, encroach on the nearby Lincoln Memorial, and destroy more open 
space on the National Mall. We have participated actively in the 
Historic Preservation Act public consultation process for this project 
for several years now and our opposition has only intensified as we 
learn more about the project details.
    Reasons for Congress to reject reauthorization of the Visitors 
Center on the National Mall site including the following:

          1. Most significant is the question of need. The stated 
        reasons for the Visitors Center now seem redundant with the 
        reopening of the newly revamped National Museum of American 
        History. The justification for construction of this visitor 
        center was to explain the Vietnam War to visitors who do not 
        know about this critical event American history. The Vietnam 
        Veterans Fund also has stated that the center would put this 
        war in the larger context of American wars. The newly reopened 
        American History Museum, located only a few blocks from the 
        Vietnam Memorial, accomplishes these goals amply. The museum 
        features a marvelous new exhibit entitled ``The Price of 
        Freedom'' that puts the Vietnam War in an interesting 
        perspective as part of the larger story of Americans at war. A 
        separate Vietnam War visitor center is not needed and would 
        compete with the Smithsonian's new permanent exhibit.
          2. Modern electronic communications, not yet well developed 
        at the time the visitor center was first authorized, can be 
        developed to offer simple, low-cost educational and 
        interpretive materials without the need for costly new 
        construction and the long-term maintenance and other costs 
        associated with underground construction. Furthermore, 
        electronic materials can be updated and revised as needed in 
        coming years to readily adapt to changing needs.
          3. Congress mandated that the Visitors Center be located 
        ``underground'' to protect the Mall's open space but the 
        project, while sunken below grade, is not underground but 
        instead creates a large open pit on this historically sensitive 
        site. We understand the difficulty of meeting the 
        ``underground'' requirement. However, after three years of 
        trying to find a successful solution, it seems clear that the 
        designers are unable to build the structure underground that 
        also protects, as required by the Commemorative Works Act, the 
        Mall's historic plans and public open space. This sensitive 
        Mall site simply cannot accommodate the proposed project. An 
        added consequence of the location, which is at the main bus 
        drop-off for this part of the National Mall and thus the first 
        attraction visitors will encounter, is that visitors may choose 
        to visit the visitor center first and afterwards decide not to 
        cross busy Henry Bacon Drive to the Memorial itself--a tragic 
        loss for visitors and this powerfully moving Memorial.
          4. This visitor facility already has spawned new calls for 
        such centers elsewhere, most recently in connection with the 
        future Martin Luther King Jr. Memorial. In the case of the MLK 
        Memorial, a new Visitor Center/Bookstore/Restroom facility was 
        added to the project in 2005--two years after Congress passed 
        the moratorium on any future memorials or visitors centers on 
        the Mall--because the Memorial sponsor and the National Park 
        Service argued that such a visitor center was needed to provide 
        interpretation for the Memorial. The federal and District 
        project review agencies have accepted that reasoning. We are 
        concerned that with the Vietnam visitor center as a precedent 
        the floodgates will open to additional visitors centers at each 
        and every memorial on the National Mall, further cluttering the 
        open landscape with retail and exhibitions better reserved for 
        our national museum buildings. With no enforcement, the 
        moratorium is not working.

    In conclusion, the Vietnam Visitors Center, so controversial and 
divisive from the start, has been proven in recent years to be 
redundant and destructive of the sensitive historic landscape and 
should not be reauthorized.
    In our view--and given the recurring problems of exceptions such as 
this project being made to the Commemorative Works Act--there is a need 
for a hearing about reviewing and perhaps reforming the Commemorative 
Works Act. We welcome the opportunity to speak with you further about 
such a review.
            Sincerely,
                                 Judy Scott Feldman, Ph.D.,
                                               Chair and President.
                                 ______
                                 
                                                  November 24, 2009

Hon. Clair McCaskill,
U.S. Senator, Hart Senate Office Building, SH-717, Washington DC.
    Dear Senator McCaskill: On behalf of the SGT. Alvin C. York Family, 
we fully support the federal legislation to designate the Liberty 
Memorial as the National World War I Memorial. We are very pleased that 
this designation is under consideration.
    Alvin C. York of Pall Mall, Tennessee, is the most decorated United 
States World War I soldier. His battlefield exploits on October 8, 
1918, earned him the Medal of Honor. He fearlessly lead seven men who 
charged with great daring a machine gun nest which was pouring deadly 
and incessant fire upon his platoon. In this heroic feat the machine 
gun nest was taken, together with four officers and 128 men and several 
guns. The courage and sacrifice that Sergeant. York and all World War I 
soldiers gave our nation are honored everyday at the Liberty Memorial.
    The Liberty Memorial was built to honor all American World War I 
soldiers. A fundraising drive in 1919 raised more than $2.5 million in 
less than two weeks to fund it's design and construction. From the 
beginning, the Liberty Memorial has been recognized as a national 
treasure. As stated by President Coolidge during the 1926 opening 
ceremony:

          Today I return at the special request of the distinguished 
        senators from Missouri and Kansas, and on the invitation from 
        your committee on arrangements in order that I may place the 
        official sanction of the national government upon one of the 
        most elaborate and impressive memorials that adorn our county.

    This was further solidified when Congress passed a resolution in 
October 2000 ``recognizing the Liberty Memorial in Kansas City, 
Missouri, as a national World War I symbol honoring those who defended 
liberty and our country through service in World War I.''
    The National World War I Museum was designated as such by the U.S. 
Congress in 2004 and is located within the Liberty Memorial complex. It 
is the only Museum in the United States solely dedicated to the Great 
War. The site also received National Historic Landmark status in 2006.
    The inscription at the base of the Liberty Memorial Tower reads, 
``In Honor of Those who Served in the World War in Defense of Liberty 
and Our Country,'' and for more than eighty years, the Liberty Memorial 
has been the country's leading institution in remembering World War I. 
I believe the National World War I Memorial should be in Kansas City, 
Missouri.
            Sincerely,
                                        George Edward York.
                                         Betsy York Lowery.
                                 ______
                                 
                                       The American Legion,
                                  Washington, DC, October 28, 2009.
Hon. Edolphus Towns,
Chairman.
Hon. Darrell Issa,
Ranking Member, Committee on Oversight and Government Reform, U.S. 
        House of Representatives, 2347 Rayburn House Office Building, 
        Washington, DC.
    Dear Gentlemen: After reviewing the proposed Amendment in the 
Nature of a Substitute to H.R. 1849, the World War I Memorial and 
Centennial Act of 2009, offered by Mr. Towns (NY), The American Legion 
is prepared to offer its full support of this proposed amendment.
    The American Legion was founded in 1919 by veterans of the War to 
End All Wars--World War I. Public Law 108-375 officially recognized the 
National World War I Museum. The American Legion believes it is only 
fitting to officially designate the Liberty Memorial at the National 
World War I Museum as the National World War I Memorial.
    This legislation also calls for the establishment of a World War I 
Centennial Commission to ensure a suitable observance of the centennial 
of World War I that would promote the values of honor, courage, 
patriotism and sacrifice. The American Legion would be honored to have 
a representative on such a Commission.
    Again, The American Legion fully supports this proposed amendment 
and would encourage you and your colleagues to aggressively pursue 
timely enactment.
            Sincerely,
                                          Clarence E. Hill,
                                                National Commander.
                                 ______
                                 
                                       The American Legion,
                               Jefferson City, MO, October 7, 2009.
Hon. Emanuel Cleaver, II,
U.S. Representative, 1027 Longworth Office Bldg., Washington, DC.
    Dear Representative Cleaver, On Behalf of the 54,000 Legionnaires 
of The American Legion Department of Missouri, we would like to take 
this opportunity to thank you for your service to our Country and to 
the citizens of the Great State of Missouri. Recently during our 91st 
Annual Department Convention, held in Jefferson City, Missouri, we 
adopted Missouri Resolution Three, which urges The Congress of the 
United States to designate The Liberty Memorial, at the National World 
War I Museum in Kansas City, Missouri as ``The National World War I 
Memorial''. I have attached a copy of said resolution.*
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    The Liberty Memorial site was dedicated in November of 1921 and 
marks the only time in history that five Allied Military Leaders were 
present to honor the more that 4,000,000 men and women that served 
during World War I. General of the Armies, John J. Pershing, a native 
of Missouri, noted on that day'' the people of Kansas City, Missouri 
are deeply proud of this beautiful memorial, erected in Tribute to the 
Patriotism, the gallant achievements, and the heroic sacrifices of 
their sons and daughters who served in our country's Armed Forces 
during the World War. It Symbolized their grateful appreciation of Duty 
Well Done, and appreciation, which I share, because I know so well how 
richly it is merited''.
    The Memorial has been and still remains a proud part of the 
patriotic heritage of, not only the people of Missouri, but of The 
United States of America and should be designated as ``The national 
World War I Memorial''.
    Thank you for your consideration and continued support.
            Sincerely,
                                      Victor J. Stragliati,
                                              Department Commander.
                                           Wade F. Prosser,
                                               Department Adjutant.
                                 ______
                                 
                                  Veterans of Foreign Wars,
                                   Kansas City, MO, March 31, 2009.
Brian Alexander,
National WWI Museum, 100 West 26th Street, Kansas City, MO.
    Dear Mr. Alexander, On behalf of the Veterans of Foreign Wars of 
the United States, we fully agree with the federal legislation granting 
official status to the Liberty Memorial, designating it as the National 
World War I Memorial.
    As you know, just two weeks after the November 11, 1918 Armistice, 
Kansas Citizens embarked on a campaign that would one day create the 
National World War I Museum. A community-based fundraising drive in 
1919 raised more than $2.5 million in less than two weeks to build the 
Liberty Memorial. After three years of construction, the Liberty 
Memorial opened on November 11, 1926, immediately becoming an iconic 
landmark.
    Because of their efforts, we have today a valuable repository of 
America's heritage. The Liberty Memorial is a place where history, 
achievement, courage and sacrifice become real for all people. The 
Liberty Memorial is the strongest link we have to the more than 2 
million American men and women who served during World War I.
    Since its dedication, the Liberty Memorial has enabled millions of 
deserving citizens and foreign visitors alike, an opportunity to travel 
to Kansas City to visit and appreciate one of America's most cherished 
monuments. Without the existence of the Liberty Memorial, it is quite 
possible the memory of those who fought during World War I would fade 
and then disappear.
    The effort to secure official designation is easily supported by 
the VFW. As an organization of combat veterans, we believe that it is 
imperative to ensure the memory of their courage and sacrifice will not 
fade or disappear into anonymity . . . that would be an irretrievable 
loss to the nation. Accordingly, we will present the attached 
resolution proposal at our 110th National Convention in August.
    We thank you for your service and dedication in honoring such a 
critical historical legacy and please let us know where we can further 
assist in this noble effort.
            Sincerely,
                                      Glen M. Gardner, Jr.,
                                                Commander-in-Chief.
                                 ______
                                 
                         African-American Civil War Museum,
                                  Washington, DC, December 3, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Energy and Natural Resources 
        Committee, U.S. Senate, Dirksen Senate Office Building--Room 
        304, Washington, DC.
Re: Bill S. 2097

    Dear Senator Udall: On behalf of the African American Civil War 
Memorial, I am concerned anytime a memorial which was raised up for the 
sole purpose of honoring a specific group brave and honorable American 
soldiers is threatened with any change that would dilute it's solemn 
purpose.
    Re-dedicating the District of Columbia World War I Memorial to 
include veteran's of the 50 States with voting congressional 
representation, World War I veterans diverts attention away from the 
original, intended concept, which was honoring their brave, fallen of 
the District of Columbia.
    Perhaps more importantly though. the dangerous precedent set by 
this piece of legislation threatens the status of many other memorials 
that by deliberate design are meant to honor specific groups. Once such 
memorial is The African American Civil War Memorial located in D.C.'s 
Shaw Community on U Street, N.W. This memorial proudly honors the lives 
of African American soldiers that fought in the Civil War, but were 
soon forgotten. If you pass this bill, I fear that later on some group 
might come along and decide that Washington lacked a comprehensive 
Civil War memorial and demand we rededicate our memorial as the 
African-American and Caucasian's-Also Civil War Memorial.
    It is my request that you do not allow the only existing memorial 
for the soldiers of the District of Columbia, who, unlike the soldiers 
from the other States, died without a voting representative in 
Congress, to be altered and to honor the legacy of past Washingtonians 
that toiled to create a legacy for their soldiers.
            Regards,
                                           Dr. Frank Smith,
                                                 Founding Director.
                                 ______
                                 
Statement of Paul Strauss, U.S. Senator From the District of Columbia, 
                               on S. 2097
    Chairman Udall, Ranking Member Burr, and others on the 
Subcommittee, as an elected United States Senator for the District of 
Columbia, I thank you for the opportunity to present this testimony for 
the record regarding my opposition to Bill S. 2097, otherwise known as 
the Frank Buckles World War I Memorial Act. I am honored to appear here 
today on behalf of the residents of the District of Columbia both past 
and present.
    The re-authorization to re-dedicate the District of Columbia World 
War I Memorial is yet a further diminution to the dignity of an already 
disenfranchised people. This memorial was dedicated on the 11th hour of 
the 11th day of November 1931, 13 years to the date of the Armistice. 
For over 78 years, it has stood proud and serene as the only memorial 
to the brave men and women from the Nation's Capital who, along with 
other brave Americans, fought and died for their country. However, 
unlike those other brave Americans, DC's ``Doughboys'' fought and died 
without anyone in the Congress of the United States ever being able to 
cast a vote to declare the war which took their lives.
    Although well intentioned, Bill S. 2097, is instead a further 
insult to the already underrepresented people of the District of 
Columbia. Re-dedicating the District of Columbia World War I Memorial 
as the National and District of Columbia World War I Memorial, while 
noble in its intention to commemorate the lives of the Americans that 
fought and died in WWI, in reality only takes away the one and only 
memorial erected to specially commemorate DC's members of the armed 
forces. Each of the 499 names inscribed on this memorial all died 
without a vote for a country who would not give them the same 
democratic rights their fellow soldiers enjoyed. Currently the memorial 
stands not just as a symbol of the legacy of the men and women that 
died in WWI, but also as a symbol of the spirit and patriotism of the 
unrepresented and vote-less citizens of the District of Columbia.
    Neither this bill, nor this hearing today is about the great 
injustices that come from DC's lack of Statehood. It is, however, a 
fitting and appropriate opportunity to remind Americans that the 
District of Columbia provided more soldiers to the Great War than ten 
states and territories and according to Star articles published after 
the war, 26,000 DC men and women total served in the war, of which 535 
gave their lives. Following the war, a memorial commission, comprised 
of Washington citizens, was formed to mobilize a campaign for the 
memorial and it was an Act of Congress in 1924 that led to the 
authorization of the District of Columbia War Memorial on June 7 that 
same year.
    It was not on a whim or oversight that this memorial was dedicated 
only to the District of Columbia's fallen soldiers. In fact, the very 
history of the memorial points to the rationality that the memorial 
continues on as a District of Columbia World War I Memorial. From the 
locally raised funds that were raised to erect the memorial to the 
local residents that helped design and build it; the District of 
Columbia was the heart and soul of this memorial.

    --The lead architect was local, DC based architect, Frederick H. 
            Booke
    --Then president of the D.C. Chamber of Commerce, Harry King 
            insisted that, ``Construction of the war memorial by out-
            of-town agencies would violate the principle and do 
            injustice to the people of our city.'' In that spirit, a 
            local construction company, James Baird Co., was chosen as 
            the contractor.
    --At the time, it was even encouraged for individual states to 
            honor their fallen and an American Legion executive 
            committeeman for D.C. spoke out against D.C.'s lack of a 
            memorial, ``Washington lags behind every State in the Union 
            in expressing its appreciation of the services of its sons 
            and daughter who `went to war'.''
    --The Star, a local paper at the time, reported in July 1926 on the 
            WWI Memorial commission's stated purpose of the memorial, 
            ``The memorial, which, as the great bridge across the 
            Potomac shall speak a Nation's remembrance for her 
            defenders shall speak our own more intimate gratitude to 
            those more intimately bound to us; is to be built by 
            subscription from the people of Washington. . . .It will 
            stand through the years as the expression of a city's pride 
            in the men who fought in its behalf.''

    Furthermore, I am concerned about the misguided education of some 
of my fellow District Memorial enthusiasts that have thrown their 
support behind this Bill with the false impression that its approval is 
necessary to pay for the refurbishment of the memorial. A staff member 
of the Council of the District of Columbia told me that the support for 
this bill was based on the belief that this legislation would fund the 
needed repairs. He was unaware that in the recently approved American 
Recovery and Reinvestment Act of 2009, money has been already allocated 
to refurbish this memorial with the stimulus money presented to the 
National Parks and Services to the tune of $7.3 million dollars. I am 
pleased to note that in her statement today, Katherine Stevenson, the 
Obama Administration's representative, also made note of these funds, 
and reiterated the Department of Interior's commitment to the 
monument's complete refurbishment.
    The mere geographic location of the memorial, on the National Mall 
is not reason enough to re-dedicate the memorial's status. DC's 
memorial was erected and dedicated before the other wars for which the 
additional memorials now exist. Additionally, aside from the question 
as to how best to commemorate the fallen of this war, is the larger 
question of the preserving our great national mall for future 
generations. It must remain more than a collection of multiple 
monuments to the armed conflicts of the 20th Century.
    As a D.C. resident, I reject the notion that only one part of our 
Nation's Capitol is appropriate to commemorate our honored veterans. 
One particularly appropriate and poignant monument to brave American 
veterans lies approximately 20 blocks to the north of our mall. The 
African-American Civil War memorial located in the historic Shaw 
community is one exceptional example of how the brave veterans of our 
tragic Civil War are honored with a much dignity and sincerity as any 
soldier commemorated on the mall.
    This unique and special purpose memorial shows us that not only can 
we honor veterans with equal dignity both on and off the mall, but it 
offers a cautionary warning as well. The dangerous precedent set by 
this piece of legislation threatens the status of many other memorials 
that by deliberate design are meant to honor specific groups. In 
addition to the overlooked African-Americans who fought in the Civil 
War, many other ethnic groups also made great sacrifices. Irish-
American's in particular contributed heavily to the Union's war 
efforts. If you pass this bill, what will we say to those advocates who 
might later on come along and decide that Washington DC lacks a 
comprehensive enough Civil War commemoration? Would they site the 
precedent of this bill and later demand we rededicate that memorial as 
the ``African-American and Irish-Americans also Civil War Memorial.'' 
What would we tell advocates of other victims of genocide when they 
demand their share of exhibit space at the US Holocaust Memorial?
    A memorial to commemorate all of the American lives lost during WWI 
is certainly appropriate. I would happily support this effort but not 
at the cost of diminishing the legacy of the late World War One 
veterans of the District of Columbia. I would be proud to offer my 
support and the full cooperation of my office to help identify an 
appropriate location in our great District of Columbia that would both 
honor all of our nation's World War One veterans appropriately.
    I would ask that this Committee hold the record of this hearing 
open for some number of days so that I can include some letters from my 
Constituent's to whom the memorial has special significance. In 
closing, let me thank, Ms. Jenna A. Kohler, my Legislative Assistant, 
for her help in the preparation of this statement.
                                 ______
                                 
Heart Mountain Wyoming Foundation * The Conservation Fund * 
        Japanese American Citizens League * National Parks 
    Conservation Association * National Trust for Historic 
                                               Preservation

                                                  December 1, 2009.
Hon. John Barrasso,
307 Dirksen Senate Office Building, U.S. Senate, Washington, DC.
    Dear Senator Barrasso: On behalf of our organizations, we write to 
express our support for your legislation (S. 2722) to authorize the 
National Park Service to conduct a special resource study of the Heart 
Mountain Relocation Center, located near Cody, Wyoming. We greatly 
appreciate Senator Enzi also cosponsoring the legislation and 
Congresswoman Lummis introducing companion legislation in the House.
    During World War II, the U.S. government incarcerated over 14,000 
Japanese Americans at the Heart Mountain site over its three year 
period of existence.
    Today, the site features important historic resources. In 2006, the 
U.S. Department of the Interior designated the site as a National 
Historic Landmark and the State of Wyoming has additionally named the 
location as a Wyoming Heritage Site. The site retains a significant 
degree of physical and historic integrity and still has a number of 
buildings surviving in the original placement. The site is additionally 
significant for its association with U.S. military history and U.S. 
constitutional law, and for its association with Japanese American 
social history.
    The Heart Mountain Relocation Center opened on August 11, 1942 and 
operated for 39 months, closing on November 10, 1945. At its peak, 
Heart Mountain contained 10,767 Japanese Americans from California, 
Washington and Oregon, two-thirds of whom were United States citizens. 
As one of only ten such camps in seven mostly western states, the 
center housed Japanese Americans removed from the West Coast under the 
authority of Presidential Executive Order 9066. Although not charged 
with any crimes and without benefit of judicial hearings, Japanese 
Americans as a group were uprooted from their homes and businesses and 
taken under armed guard for detention in a system of assembly and 
relocation centers.
    Your legislation would provide the National Park Service with the 
authority to engage the public in an important dialogue about the 
future of the site and to outline various options to conserve and 
manage the site's important historic resources. Your bill will enable 
local stakeholders to develop a vision for the long term management of 
the site and provide additional information for you, Congress and the 
public at large on future options to realize the full educational 
potential of the Heart Mountain site.
    We appreciate your strong support for conserving our nation's rich 
and diverse heritage and look forward to working with you to advance 
this important legislation.
            Sincerely,
                              Shirley Higuchi, Board Chair,
               David Reetz, President & Executive Director,
                                Heart Mountain, Wyoming Foundation.
                   Floyd Mori, National Executive Director,
                                 Japanese American Citizens League.
    Daniel Sakura, Vice President for Government Relations,
                                             The Conservation Fund.
            Barbara Pahl, Director, Mountain Plains Office,
                          National Trust for Historic Preservation.
                 Sharon Mader, Grand Teton Program Manager,
                           National Parks Conservation Association.
                                 ______
                                 
                                           Hill & Knowlton,
                                                 November 25, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on Parks, U.S. Senate Committee on Energy and 
        Natural Resources, 304 Dirksen Senate Building, Washington, DC.
    Dear Chairman Udall: Please accept this letter as my support for 
legislation (S. 2722) to authorize the National Park Service to conduct 
a special resource study of the Heart Mountain Relocation Center, 
located near Cody, Wyoming.
    As you know, I was interned there with my family during World War 
II so the site has special significance to me. But in addition, it is 
considered to be an important historic site and in 2006 the U. S. 
Department of Interior designated the site as a National Historic 
Landmark. It has also been named a Wyoming Heritage Site.
    This important legislation would provide the National Park Service 
with the authority to engage the public in an important dialogue about 
the future of the site and to outline various options to conserve and 
manage the site's important historic resources.
    Being such a nationally significant site, this Study will enable 
stakeholders to develop a vision for the long term management of the 
site and to realize the full educational potential of the historic 
resource.
    America has come a long ways in acknowledging the injustices of 
this period, but it has lessons for future protections of individual 
liberties and freedoms that must not be forgotten. You have my strong 
support for conducting this critically needed study.
            Sincerely,
                                          Norman Y. Mineta,
                                                     Vice Chairman.
                                 ______
                                 
                            National Mall Liberty Fund D.C.
                                                 December 14, 2009.
Hon. Mark Udall,
Chairman, Senate Subcommittee on National Parks, Hart Office Building, 
        Suite SH-317, Washington, DC.
    Dear Chairman Udall, Thank you for conducting the hearing of 
December 3, 2009, on S. 2738, the National Liberty Memorial Act, 
introduced by Sen. Chris Dodd and Sen. Charles Grassley. This bill 
authorizes a memorial to African American soldiers, patriots and 
liberty-seekers of the Revolutionary War. It affirms the bipartisan 
decision of the 100th Congress and President Ronald Reagan to designate 
the history of ``preeminent historical and lasting significance.'' This 
warrants praise and lasting gratitude--not re-examination by the 
Interior Department. The Department might wish to rethink this request.
    Among 24 witnesses commenting on this identical class of persons 24 
years ago, an extemporaneous remark of Rep. Parren J. Mitchell 
electrified a House hearing: ``This memorial will remind us that, from 
the Revolution to Vietnam, we've been there fighting and dying for 
America.'' The entire nation will have an opportunity to consider that 
statement in the context of a sweeping new four-hour documentary. ``For 
Love of Liberty'' will air on PBS stations in February 2010. I ask that 
this explanation and the endorsements provided by filmmaker Frank 
Martin be included in the Record.
    Rep. Mitchell knew what we all knew--that a modest memorial derived 
from the unique status of the forerunners, strategically placed near 
existing and future symbols, could interact and mature with them to 
tell a multi-generational story about liberty and unity that transcends 
color and a time. His 19 words condensed nearly 200 pages of remarks 
that day, including my own. Through Revolution, slavery, civil war, Jim 
Crow, world wars and nonviolent protest ``we've been there,'' never 
conceding defeat and never giving up the fight to defend, protect and 
become ``we the people.''
    In the process, they established liberty in America and helped 
preserve the liberty of European nations that had enslaved their 
ancestors. Current members of the Congressional Black Caucus are among 
them. Mr. Martin and a cast of over 40 distinguished Americans, 
including Morgan Freeman, a memorial advisor 20 years ago, weave the 
story, from the Revolution to Iraq. This film is destined to become as 
mind-opening and beloved as ``Roots.''
    In 1988, Congress declared the ``preeminent'' deeds of the 
forgotten founders eligible for memorialization in Area 1. Secretary 
Donald Hodel made the recommendation in conformance with the 
Commemorative Works Act (CWA). President Ronald Reagan signed it into 
law. In 2007, the Memorial Commission confirmed the nexus between that 
law and the current project. Promptly, it was rejected by the past 
Secretary. Now, this Department has asked the Energy Committee to 
repeal Public Law 100-265 entirely and allow the National Park Service 
to reconsider the worthiness. This would expunge a legacy of the 99th 
and 100th Congresses, President Reagan and Secretary Hodel.
    Over two decades of observations and warm associations suggest that 
the land managers have deep affection for this memorial. But they are 
reading into the CWA what is not there while ignoring an established 
precedent and hundreds of reaffirming books, articles and discoveries 
since 1985. These need no further scrutiny, consecration or hallowing 
by government agencies.
    Before a hearing in the House is conducted on Rep. Donald Payne's 
bill, H.R. 4036, the Department might consider the testimony of nearly 
three dozen witnesses between 1985 and 1986; the absence of any 
provision in the CWA that obligates Congress to approve a separate Act 
to declare what it has already declared in a free-standing public law; 
and recent letters praising ``For Love of Liberty'' by Sen. Carl Levin, 
Sen. John McCain (cosponsors with Sens. Dodd and Grassley in 1985) and 
filmmaker Ken Burns.
    Then, I commend a remark of President George H.W. Bush while making 
a donation in the Oval Office during Desert Storm: ``Think about how 
much they must have loved this country, how they believed in its 
dreams. It's an astounding devotion. It's in a league by itself.''
    Moving across the president's desk in February 2010 (Black History 
Month), without the worthiness of its honorees being muddled, the 
National Liberty Memorial Act and ``For Love of Liberty,'' could teach 
the nation a long-deferred lesson in liberty and human potential.
            Sincerely,
                                        Maurice A. Barboza,
                                                           Founder.

                                    

      

</pre></body></html>
